 OFFICE OF JUSTICE PROGRAMS

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2010

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 11-17

             February 2011

              OFFICE OF JUSTICE PROGRAMS

             ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2010


               OFFICE OF THE INSPECTOR GENERAL

                  COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Office of Justice Programs (OJP) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed OJP’s audit in
accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2010 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2009, OJP also received an unqualified opinion
on its financial statements (OIG Report No. 10-17).

      KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2010, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified no deficiencies in internal
control. In the FY 2010 Independent Auditors Report on Compliance and
Other Matters, the auditors identified no instances of non-compliance with
laws and regulations and the Federal Financial Management Improvement
Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on OJP’s financial statements, conclusions
about the effectiveness of internal control, conclusions on whether OJP’s
financial management systems substantially complied with the Federal
Financial Management Improvement Act of 1996, or conclusions on
compliance with laws and regulations. KPMG LLP is responsible for the
attached auditors’ reports dated November 1, 2010, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with U.S. generally
accepted government auditing standards.
This page intentionally left blank.

               OFFICE OF JUSTICE PROGRAMS

               ANNUAL FINANCIAL STATEMENT

                    FISCAL YEAR 2010

                           TABLE OF CONTENTS
                                                                               PAGE

MANAGEMENT’S DISCUSSION & ANALYSIS..............................................3


INDEPENDENT AUDITORS’ REPORTS


   REPORT ON FINANCIAL STATEMENTS ............................................... 25


   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 27


   REPORT ON COMPLIANCE AND OTHER MATTERS................................ 31


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


   CONSOLIDATED BALANCE SHEETS ................................................... 34


   CONSOLIDATED STATEMENTS OF NET COST ..................................... 35


   CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 36


   COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 38


  NOTES TO THE FINANCIAL STATEMENTS........................................... 40


REQUIRED SUPPLEMENTARY INFORMATION........................................... 68


REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION..................... 75

This page intentionally left blank.

Management’s Discussion and Analysis


              Unaudited

This page intentionally left blank.

                Management’s Discussion and Analysis




                           U.S. DEPARTMENT OF JUSTICE

                          OFFICE OF JUSTICE PROGRAMS 

                       MANAGEMENT’S DISCUSSION & ANALYSIS

                                   (UNAUDITED) 


BACKGROUND
The Department of Justice (DOJ), Office of Justice Programs (OJP), established by the Justice
Assistance Act of 1984 and reauthorized in 2005, provides federal leadership in developing
the nation’s capacity to prevent and control crime, administer justice, and assist crime victims.
OJP strives to make the nation’s criminal and juvenile justice systems more responsive to the
needs of state, local, and tribal governments and their citizens. OJP partners with federal,
state, and local agencies, and national and faith/community-based organizations to develop,
operate, and evaluate a wide range of criminal and juvenile justice programs. These
partnerships also provide resources to more effectively fight crime and improve the quality of
life and sense of safety in communities across the nation.

OJP administers formula and discretionary grant programs, and provides training and technical
assistance on evidence-based practices through programs developed and funded by its bureaus
and program offices (B/PO). Although OJP staff conduct some research and provide technical
assistance, the bulk of OJP’s resources for achieving its goals are dedicated to federal financial
assistance for practitioners, state and local governments and agencies, scholars, and experts. OJP
awards formula grants to state agencies that administer drug control, criminal justice system
improvement, juvenile justice, and victim compensation and assistance programs. State agencies
also utilize OJP funds to award subgrants to units of state and local governments to accomplish
program goals. OJP awards discretionary grants to a variety of state, local, private, and non-profit
organizations through competitive solicitations and invited solicitations.

MISSION
The mission of OJP is to improve public safety and the fair administration of justice across
America through innovative leadership and programs. The alignment of OJP’s strategic goals
and objectives under the DOJ Strategic Plan is presented on the next page.




U.S. Department of Justice



                                                -3-
                   Management’s Discussion and Analysis




       Alignment of 2007-2010 OJP Strategic Goals and Objectives to DOJ Strategic Plan and Goals
 DOJ Goal 2: Prevent Crime,          DOJ Goal 3: Ensure the Fair and Efficient Administration of Justice
 Enforce Federal Laws, and
 Represent the Rights and
 Interests of the American
 People
 OJP Goal 1: Increase the            OJP Goal 2: Improve       OJP Goal 3:         OJP Goal 4: Increase the
 Nation’s capacity to prevent and    the fair administration   Reduce the          understanding of justice issues
 control crime                       of justice                impact of crime     and develop successful
                                                               on victims and      interventions
                                                               hold offenders
                                                               accountable


 OJP Objectives:                     OJP Objectives:           OJP Objectives:     OJP Objectives:
 1.1 Improve policing and            2.1 Improve the           3.1 Provide         4.1 Provide justice statistics
 prosecution effectiveness           adjudication of state,    compensation        and information to support
                                     local, and tribal laws    and services for    justice policy and decision-
                                                               victims and their   making
                                                               survivors


 1.2 Enhance the capabilities of     2.2 Improve               3.2 Increase        4.2 Conduct research that
 jurisdictions to share              corrections and reduce    participation of    supports and advances justice
 information                         recidivism                victims in the      policy, decision making, and
                                                               justice process     program evaluation

 1.3 Increase the availability and
 use of technological resources
 for combating crime



 1.4 Improve the effectiveness
 of juvenile justice systems


ORGANIZATION STRUCTURE
OJP’s organizational structure reflects a centralized, transparent, and client-based approach to
accomplishing its mission. The Office of the Assistant Attorney General (OAAG) is responsible
for overall management and oversight of OJP—setting policy, and ensuring that OJP’s policies and
programs reflect the priorities of the President, the Attorney General, and the Congress. OJP’s
organization chart, shown below, was approved by Congress in April 2007.




U.S. Department of Justice
             Management’s Discussion and Analysis




U.S. Department of Justice
                 Management’s Discussion and Analysis




FINANCIAL STRUCTURE
In fiscal year (FY) 2010, OJP’s financial structure was comprised of the following appropriated
accounts:
   Salaries and Expenses: One-year salaries and expenses.
   Justice Assistance: No-year discretionary assistance.
   State and Local Law Enforcement Assistance: No-year discretionary assistance.
   Weed and Seed Program: No-year discretionary assistance.
   Juvenile Justice Programs: No-year discretionary assistance.
   Public Safety Officers’ Benefits Program: No-year mandatory and discretionary assistance.
In addition, Congress provides an obligation limitation cap of $705 million for the Crime Victims
Fund (CVF) through Title V, Section 512 of the General Provisions in the FY 2010 Appropriations
Act.
Below is a pie chart depicting OJP’s FY 2010 funding by appropriation.

                                     Office of Justice Programs

                                     FY 2010 Enacted Funding

                                        (dollars in thousands)
                                     Total Funding: $3,148,681
                                                                      Salaries and
                                                                   Expenses, $160,218
        Crime Victims Fund,                                               5%
             $705,000

               22%

                                                                           Justice Assistance,
         Public Safety                                                          $235,000
       Officers' Benefits                                                          8%
       Program, $70,100                                                 State and Local Law
              2%                                                            Enforcement
                                                                             Assistance,
                                                                             $1,534,768
       Juvenile Justice                                                         49%
     Programs, $423,595

            13%


                 Weed and Seed 

                Program, $20,000 

                      1%





U.S. Department of Justice
                Management’s Discussion and Analysis




Financial Responsibility
OJP is responsible for the fair presentation of its financial position as of September 30, 2010, and
its net cost, changes in net position, budgetary resources, Management’s Discussion and
Analysis (MD&A), Notes to the Financial Statements, Required Supplementary Information
(RSI), and Required Supplementary Stewardship Information (RSSI) for the year then ended, in
conformity with accounting principles generally accepted in the United States of America. OJP is
responsible for establishing and maintaining internal controls and for implementing and
maintaining financial management systems that substantially comply with federal financial
management systems requirements, applicable federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level.

OJP has several programs reported under the RSSI, of which the most materially significant
programs are the Violent Offender Incarceration and Truth-In-Sentencing (VOI/TIS) grant
program and the Correctional Grants for Tribal Lands grant program. Both programs are
administered by OJP’s Bureau of Justice Assistance (BJA) and provide grants to any of the 50
United States; the District of Columbia; Puerto Rico; U.S. Virgin Islands; American Samoa;
Guam; the Northern Mariana Islands; and recognized Tribal governments, for the purposes of
building or expanding correctional facilities and jails to increase secure confinement space for
violent offenders. The facilities built or expanded with these funds constitute non-federal
physical property.

OJP is also responsible for the fair presentation of performance data consistent with the
Government Performance and Results Act (GPRA) of 1993 and reporting in the Performance and
Accountability Report (PAR). OJP maintains that the financial and performance data presented
herein are valid and acceptably reliable.

OJP is highly committed to continuous improvement through its federal financial assistance
monitoring, internal audits, and related policy updates and training. OJP also actively participates
in government-wide grant simplification efforts and the DOJ Unified Financial Management
System (UFMS) project. In compliance with the Federal Financial Assistance Management
Improvement Act of 1999, OJP continues efforts to streamline and standardize grant
management policies, procedures, and technologies across the agency to reduce costs, improve
customer service, and increase efficiency. The mission of the UFMS project is to implement a
department-wide secure, integrated, and unified financial management system, supported by
standard processes, to comply with applicable statutes and regulations.




U.S. Department of Justice
                 Management’s Discussion and Analysis




ANALYSIS OF FINANCIAL STATEMENTS
The Office of the Chief Financial Officer is responsible for developing, analyzing, and ensuring
the material accuracy of financial statements for OJP.

Financial Results, Position and Condition
These financial statements have been prepared to report the financial position and results of
operations for OJP, pursuant to the requirements under Title IV of the Government Management
Reform Act (GMRA) of 1994 (Public Law [P.L.] 103-356). These statements have been prepared
from the books and records of OJP, in conformity with the formats prescribed by the Office of
Management and Budget (OMB). Accordingly, the FY 2010 statement of changes in net position
includes a cumulative result of operations of approximately $5.9 billion. This FY 2010 statement
of changes in net position also includes unexpended appropriations of approximately $5.6 billion.
OJP has a positive net position of $11.5 billion and approximately $10.5 billion in fund balances
with Treasury. Since OJP has approximately $598 million in liabilities, OJP has sufficient
resources to meet its requirements in the foreseeable future. From FY 2009 to FY 2010, the
significant decrease in resources is due primarily to the funding provided under the American
Recovery and Reinvestment Act of 2009 (Recovery Act) (P.L. 111-5). There are no known trends
or demands, commitments, events or uncertainties that will impact or that are reasonably likely to
increase or decrease the liquidity of OJP in any material way.

Resources and Results
OJP’s FY 2010 and FY 2009 sources of budgetary resources and how resources were spent are
displayed in Tables 1 and 2, respectively.

                       Table 1. Source of Office of Justice Programs Resources
                                     (Dollars in Thousands)

                                                                                            Change
                          Source                          FY 2010             FY 2009         %

  Earned Revenue                                          $     76,103    $      175,148    -56.5%
  Budgetary Financing Sources
     Appropriation Received                               $ 2,501,851     $     5,036,600   -50.3%
     Appropriation Transferred-In/Out                     $   200,453     $       283,817   -29.4%
     Nonexchange Revenues                                 $ 2,363,270     $     1,746,849    35.3%
     Other Adjustments and Budgetary Financing Sources    $    (54,000)   $     (121,642)   -55.6%
  Other Financing Sources
     Transfers In/Out Without Reimbursement              $      24,608    $       49,215    -50.0%
     Imputed Financing from Cost Absorbed by Others      $       4,712    $        4,054     16.2%
  Total                                                  $    5,116,997   $     7,174,041   -28.7%




U.S. Department of Justice
                Management’s Discussion and Analysis




                  Table 2. How Office of Justice Programs Resources were Spent
                                     (Dollars in Thousands)

                Strategic Goal (SG)                    FY 2010             FY 2009       Change %
SG 2: Prevent Crime, Enforce Federal Laws, and
Represent the Rights and Interests of the American
People
                                          Gross Cost   $ 2,757,971     $     1,919,976
                               Less: Earned Revenue    $    49,851     $       116,353
                                            Net Cost   $ 2,708,120     $     1,803,623        50.1%
SG 3: Ensure the Fair and Efficient Administration
of Justice
                                          Gross Cost   $    988,230    $     1,024,312
                               Less: Earned Revenue    $     26,252    $        58,795
                                            Net Cost   $    961,978    $       965,517        -0.4%

                                  Total Gross Cost     $   3,746,201   $     2,944,288
                       Less: Total Earned Revenue      $      76,103   $       175,148
                        Total Net Cost of Operations   $   3,670,098   $     2,769,140        32.5%

2010 Financial Highlights
OJP’s FY 2010 budgetary resources totaled $3.7 billion. Of this amount, OJP obligated
approximately $3.5 billion, resulting in an unobligated balance of $233 million. The net cost of
operations totaled approximately $3.7 billion for FY 2010.

In FY 2010, OJP had significant changes to certain accounts due to increased funding provided by
the Recovery Act in FY 2009, including the Unpaid Obligations; Unexpended Appropriations;
Budgetary Authority, Appropriations Received; and Obligations Incurred, Direct. In total, OJP
received $2.76 billion in Recovery Act funding in FY 2009. In addition, Other Liabilities decreased
by $82.9 million, mainly due to a decrease of $72 million in the Office of Community Oriented
Policing Services (COPS) advances.

OJP aligns its strategic plan, including its strategic goals, strategic objectives, programs, and
activities to DOJ Strategic Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People; and DOJ Strategic Goal 3: Ensure the Fair and
Efficient Administration of Justice. Approximately $838 million of additional budgetary
resources were expended for Goal 2 during FY 2010. DOJ Strategic Goal 2 activities accounted
for a net cost increase of 50.1% and DOJ Strategic Goal 3 activities had a decrease of 0.4% effect
to net costs in FY 2010, compared to FY 2009 net costs.




U.S. Department of Justice
               Management’s Discussion and Analysis




The following section describes OJP’s spending and its relationship to the DOJ Strategic Plan.
The programs that fall under Strategic Goal 2 include, but are not limited to, the Weed and Seed
Program, the DNA Backlog Reduction Program, and the America’s Missing: Broadcast
Emergency Response (AMBER) Program. The programs that fall under Strategic Goal 3 include,
but are not limited to, the Residential Substance Abuse Treatment Program and the Drug Court
Program.


           How the Office of Justice Programs Resources were Spent by DOJ Strategic Goal

                                              FY 2010

                                                    (Dollars in Thousands )
                                           Total Net Cost of Operations: $3,670,098
               Strategic Goal 2: Prevent 

                Crime, Enforce Federal 

               Laws, and Represent the 

               Rights and Interests of the 

                   American People

                   $2,708,120; 74%





                                                                                           Strategic Goal 3:
                                                                                      Ensure the Fair and Efficient
                                                                                       Administration of Justice
                                                                                            $961,978; 26%


PERFORMANCE INFORMATION

Data Reliability and Validity
OJP views data reliability and validity as critically important in the planning and assessment of our
performance. As such, this document includes a data verification and validation discussion, and
identifies data limitations for each performance measure. Performance data are considered reliable if
transactions and other data that support reported performance measures are properly recorded,
processed, and summarized to permit the preparation of performance information in accordance with
criteria stated by management. Performance measure data need not be perfect to be reliable--
particularly if the cost or effort of collecting data exceeds its value.




U.S. Department of Justice



                                                             - 10 -
                Management’s Discussion and Analysis




FY 2010 REPORT ON SELECTED RESULTS 


DOJ STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People
(74% of OJP’s net costs support this Goal.)
- OJP STRATEGIC GOAL 1: Increase the Nation’s capacity to prevent and control crime


PROGRAM: Weed and Seed

Background/Program Objectives: OJP’s Community Capacity Development Office (CCDO)
administers Weed and Seed, an innovative, comprehensive multiagency approach to law enforcement,
crime prevention, and community revitalization. Weed and Seed assists communities with linking
federal, state, and local law enforcement and criminal justice efforts with private sector and
community efforts. Weed and Seed assists communities in “weeding out” violent crime, gang activity,
drug use, and drug trafficking in targeted neighborhoods and “seeding” with programs that lead to
social and economic rehabilitation and revitalization. In addition, Weed and Seed sites engage in
community policing activities that foster proactive police and community engagement and problem
solving.

Performance Measure: Homicides per site (funded under the Weed and Seed Program)

Discussion of Calendar Year (CY) 2010 Results: Data for this measure are collected on a calendar
year basis and will be available in September 2011.

Discussion of CY 2009 Results: The target for CY 2009 was to reduce the average number of
homicides per site to 3.7. In CY 2009 there was an average of 3.9 homicides per site. While this
result slightly missed the target, almost the entire difference can be attributed to a single site,
which reported 45 homicides or almost 10 percent of the 459 homicides reported by 117 active
Weed and Seed sites nationwide. Excluding this one site, the average number of homicides was
3.6, which is well below the target.




U.S. Department of Justice



                                                  - 11 -
                  Management’s Discussion and Analysis




CYs 2001-2002: N/A (Measure developed in FY 2004, based on CY 2003 data)

                                Figure 1. Number of Homicides Per Site


              6     5.0
              5
                              3.7      3.7                                     3.9   3.7      3.7
                                                  3.3      3.5        3.5
              4
                                                                                                     Actual
              3
                                                                                                     Target
              2
              1
              0
                   CY 2003   CY 2004   CY 2005   CY 2006   CY 2007   CY 2008   CY 2009     CY 2010



Data Definition: Although sites are affected by a range of criminal activities, such as drugs and
vandalism, CCDO selected homicide statistics as the indicator of the severity of sites’ crimes.
The number of homicides per site is an average calculated by summing the number of homicides
reported for all sites and dividing by the number of sites reporting.

Data collection and storage: Weed and Seed grantees report performance measure data on an
annual basis via web submissions to the Justice Research and Statistics Association (JRSA) and
OJP’s Grants Management System (GMS).

Data validation and verification: CCDO validates and verifies performance measure data
through site visits and follow-up phone calls conducted by JRSA. Additionally, homicide
statistics reported by jurisdictions are verified against the Uniform Crime Report published
annually by the Federal Bureau of Investigation (FBI).

Data limitations: Data for this performance measure are reported by calendar year to coincide
with submissions to the FBI Uniform Crime Reports. The data are not comparable across years
because dissimilar sites are added and graduated (continue to use the Weed and Seed strategy
without additional federal funding) each year and, due to the small number of sites overall, these
changes can greatly affect performance data.

PROGRAM: DNA Backlog Reduction

Background/Program Objectives: The National Institute of Justice (NIJ) funds and administers
the DNA Backlog Reduction Program to increase the capacity of the nation’s public DNA
laboratories and to reduce the number of backlogged casework DNA samples awaiting analysis
and entry into the Combined DNA Index System (CODIS). The goals of both of these efforts are
to reduce the size of the backlog so that more DNA samples profiles are available in CODIS for
matching to forensic cases, offenders, and arrestees. CODIS matches offer powerful investigative



U.S. Department of Justice



                                                  - 12 -
                Management’s Discussion and Analysis




leads that can solve past crimes and prevent new crimes from occurring. In the past, funds
awarded for analysis of backlogged forensic casework DNA samples were only available for the
analysis of violent offense samples (i.e., murder, non-negligent manslaughter and forcible rape);
however, from FY 2008 to date, funds can be used for any criminal DNA case. OJP’s role in
reducing the DNA backlog is to provide additional funding to qualified labs that apply for
federal funding to assist in analyzing cases.

Performance Measure: Percent reduction in DNA Backlog (casework only)

Discussion of FY 2010 Results: OJP’s FY 2010 target for reducing the DNA casework backlog
was set at 25 percent in 2009. In FY 2010, NIJ-funded crime labs reduced the DNA backlog by 29
percent, which exceeded the target, due to a funding increase of $2.6 million over the FY 2009
amount. OJP is now collecting updated national backlog data each year, and the trend shows the
backlog to be increasing.

FYs 2001 – 2003: N/A (Measure developed in FY 2004)

                     Figure 2. Percent Reduction in DNA Backlog (Casework Only)
               50%                                             45.0%
                                                     37.3%
                                           34.0%
               40%                                                       32.5%     29.0%
               30%                                                                    25.0%
                                 21.2%                                                        Actual
               20%
                       10.6%                                                                  Target
               10%

                0%
                       FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010




Data Definition: The objective of the DNA Backlog Reduction Program is to accelerate the
analysis of backlogged DNA casework samples in order to provide CODIS-compatible data for
state and national DNA databases. These data are critical investigative information for law
enforcement. NIJ computes this measure by calculating the cumulative number of backlogged
DNA cases federally-funded for analysis as part of the FY 2010 solicitation process (32,400).
This number is divided by the total number of backlogged DNA cases (111,649) as of December
31 of the year prior to when solicitations are released. Because the size of the backlog is assessed
at the end of each calendar year, it tends to vary as more or fewer samples are collected and
assessed. For example, if during a given calendar year, significantly more samples were collected
than were assessed, the backlog would grow. Likewise, if more samples are assessed than
collected, the backlog would shrink.

Data collection and storage: Data for this measure are collected by NIJ program managers and
maintained in office files.


U.S. Department of Justice



                                                      - 13 -
                Management’s Discussion and Analysis




Data validation and verification: The number of cases funded for analysis in FY 2010 is
computed from applications submitted by grantees to the FY 2010 DNA Backlog Reduction
Program. During the course of the grant, which can take up to three years to complete, grant
managers monitor each grant to insure that grantees are meeting or achieving the targets they
proposed in their applications. To date, on average, grantees have exceeded the targets proposed
in their applications.

Data limitations: None known at this time.

PROGRAM: America’s Missing: Broadcast Emergency Response (AMBER)

Background/Program Objectives: Research shows that it is critical to post and resolve AMBER
alerts as soon as possible because abductors who murder children are most likely to do so within
four hours following the abduction. The Office of Juvenile Justice and Delinquency Prevention
(OJJDP) administers OJP’s AMBER Program, which supports best practices training and technical
assistance for state and regional AMBER alert teams. At the end of 2001, there were only four
statewide AMBER alert plans. Today, all 50 states and twelve Indian tribes have plans in place.
The AMBER alert strategy focuses on: (1) strengthening the existing AMBER alert system; (2)
expanding the scope of AMBER alert; and (3) enhancing communication and coordination.

Performance Measure: Percent of children recovered within 72 hours of issuing an AMBER alert.

Discussion of FY 2010 Results: The total recovery rate within 72 hours of the issuance of an
AMBER alert was 86.9 percent for FY 2010. This result exceeds the target of 75 percent by 11.9
percentage points. This is attributable to better coordination and training; increased public awareness
of the AMBER program; technological advances; and greater cooperation among law enforcement,
transportation officials, and broadcasters.

Additionally, in FY 2010, AMBER alert completed a number of activities. Below are actual
AMBER alert accomplishments:

       - Number of participants provided AMBER alert training: 2,700
       - Number of requestors provided technical assistance: 1,343




U.S. Department of Justice



                                                 - 14 -
               Management’s Discussion and Analysis




FYs 2001 – 2006: N/A (Measure developed in FY 2007)

           Figure 3. AMBER Alert - Percent of Children Recovered Within 72 Hours

                 100%    85.3%         81.9%           81.7%     86.9%
                                                                         75%
                  80%
                                                                                Actual
                  60%
                                                                                Target
                  40%

                  20%

                  0%
                          FY 2007       FY 2008        FY 2009    FY 2010



Data Definition: Recovery rate is determined by taking the total number of AMBER alerts
cancelled within 72 hours of issuance because the subject child/children are recovered, divided
by the total number of alerts issued. The result is expressed as a percentage.

Data collection and storage: Data are collected from law enforcement and the National Crime
Information Center database. This database stores abducted children’s names and other critical
data elements.

Data validation and verification: Data for this measure are validated and verified through a
review of progress reports submitted by grantees, telephone contacts, and monitoring.

Data limitations: None known at this time.




U.S. Department of Justice



                                                  - 15 -
                Management’s Discussion and Analysis




DOJ STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice
(26% of OJP’s net costs support this Goal.)
- OJP STRATEGIC GOAL 2: Improve the fair administration of justice
- OJP STRATEGIC GOAL 3: Reduce the impact of crime on victims and hold offenders accountable
- OJP STRATEGIC GOAL 4: Increase the understanding of justice issues and develop successful
interventions

PROGRAM: Residential Substance Abuse Treatment (RSAT)

Background/Program Objectives: RSAT formula grant funds are used to implement four types of
programs: 1) residential substance abuse treatment programs that provide individual and group
treatment activities for offenders in residential facilities operated by state correctional agencies; 2)
jail-based substance abuse programs that provide individual and group treatment activities for
offenders in jails and local correctional facilities; 3) post-release treatment components that
provide treatment following inmates’ release from custody; and 4) aftercare components that
require states to give preference to subgrant applicants that provide aftercare services to program
participants. For all programs, at least 10 percent of the total state allocation is made available to
local correctional and detention facilities for either residential substance abuse treatment programs
or jail-based substance abuse treatment programs.

Performance Measure: Number of participants in the Residential Substance Abuse Treatment
(RSAT) Program

Discussion of CY 2010 Results: The target for CY 2010 is to have 25,000 participants in
RSAT-funded programs. Data for this measure are collected on a calendar year basis and CY
2010 data will be available in October 2011.

Discussion of CY 2009 Results: The target for CY 2009 is to have 20,000 participants in RSAT-
funded programs. In CY 2009, there were 39,159 participants in RSAT. In past years, grantees may
have undercounted the number of participants, given that they were accustomed to report one entry for
all of their open and active awards. In FY 2010, BJA remedied that data collection flaw, and grantees
are now reporting on the number of participants for each open and active award. BJA believes these
data to be more reliable.




U.S. Department of Justice



                                                   - 16 -
                Management’s Discussion and Analysis




                              Figure 4. Number of Participants in RSAT
                                                                                                               Actual
                                                                                           39,159
            45,000          38,639
                                                                                                               Target
            40,000                            33,239
                                                       31,740
            35,000                                              27,756   26,991   28 308
            30,000                   25,521                                                           25,000
                                                                                             20,000
            25,000
            20,000 10,546
            15,000
            10,000
             5,000
                 0
                    CY 2001 CY 2002 CY 2003 CY 2004 CY 2005 CY 2006 CY 2007 CY 2008 CY 2009 CY2010

Data Definitions: The number of RSAT participants is the count of program participants during
the reporting period. The number of participants is collected from grantees.

Data collection and storage: Program managers obtain data from reports submitted by grantees
into BJA’s Performance Measurement Tool (PMT).

Data validation and verification: Data are validated and verified through program managers’
programmatic monitoring. This oversight includes a review of all relevant material to determine
grant performance, desk reviews of grantee support documentation, telephone contacts, and on-
site grant monitoring.

Data limitations: Because of previous data collection limitations regarding the variations in
reporting period for the grantees, BJA migrated the collection of RSAT performance measures to
the PMT, an online data collection tool. The grantees began reporting the RSAT data in the PMT
for the reporting period January 1- June 30, 2009 and have reported on a quarterly basis since
then. The number of RSAT participants for 2009 reflects the 2009 calendar year, but in the
future, because grantees are reporting on a quarterly basis, BJA will report these numbers on a
fiscal or calendar year basis. The issue of variations in grantee reporting periods has been
resolved.

PROGRAM: Drug Court

Background/Program Objectives: OJP’s Drug Court program is administered by BJA and
OJJDP. The Drug Court program was established in 1995 to provide financial and technical
assistance to states, state courts, local courts, units of local government, and tribal governments in
order to establish drug treatment courts. Drug courts employ an integrated mix of treatment, drug
testing, incentives, and sanctions to break the cycle of substance abuse and crime. Since 1989,
more than 2,200 jurisdictions have established or are planning to establish a drug court.
Currently, every state and two U.S. territories have one or more drug courts in operation.




U.S. Department of Justice



                                                       - 17 -
                Management’s Discussion and Analysis




The need for drug treatment services is tremendous and OJP has a long history of providing
resources to break the cycle of drugs and violence by reducing the demand, use, and trafficking
of illegal drugs. Twenty-seven percent of the 6.1 million people, who reported to the 2008
National Crime Victimization Survey that they had been a victim of violence, believed that the
perpetrator was using drugs, or drugs in combination with alcohol. Further, 54 percent of jail
inmates were abusing or dependent on drugs, according to Bureau of Justice Statistics (BJS)
2002 Survey of Inmates in Local Jails. Correspondingly, 53 percent of state inmates, and 45
percent of federal inmates abused or were dependent on drugs in the year before their admission
to prison, according to the BJS 2004 Surveys of Inmates in State and Federal Correctional
Facilities.

Performance Measure: Graduation rate of program participants in the Drug Courts Program (adult
drug court participants only)

Discussion of FY 2010 Results: The target for FY 2010 is a graduation rate for graduation-
eligible participants of 71 percent. Final actual data for this measure will be available in early
November 2010 but was not available to be included in the DOJ Consolidated Performance and
Accountability Report Financial Statements.

FY 2001 – FY 2006: N/A (Measure developed in FY 2005, using a different methodology. As a
result, data from FY 2005 and FY 2006 are not included)

                       Figure 5. Graduation Rate of Drug Court Participants
                80%      65.0%         63.2%                           71%
                70%                                  57.3%
                60%
                50%
                                                                                     Actual
                40%
                30%                                                                  Target
                20%
                10%
                 0%
                         FY 2007       FY 2008       FY 2009       FY 2010


Data Definitions: The graduation rate is calculated by dividing the number of graduates during
the reporting period (numerator) by the total number of drug court participants that exit the
program during the reporting period due to graduating (completing program requirements) or
failing to graduate as a result of noncompliance with program requirements (denominator).

Data collection and storage: Program managers obtain data from reports submitted by grantees
into BJA’s PMT.




U.S. Department of Justice



                                                 - 18 -
                Management’s Discussion and Analysis




Data validation and verification: Data are validated and verified through program managers’
programmatic monitoring. This oversight includes a review of all relevant material to determine
grant performance, desk reviews of grantee support documentation, telephone contacts, and on-
site grant monitoring.

Data limitations: Graduation rates are not reported for years prior to FY 2007 because the
formula for calculating the rate was changed that year to make it more accurate. Graduation rates
from 2007 forward are calculated by dividing the number of drug court participants that graduate
during the reporting period by the total number of drug court participants that exit the program
during the reporting period due to graduating or failing to graduate as a result of noncompliance
with program requirements. Prior to FY 2007, the formula divided the number of graduates by
the total number of drug court participants, regardless of eligibility for graduation and continued
program participation and compliance, which resulted in lower graduation rates.

Discontinued OJP Performance Measures From FY 2009 to FY 2010
There are no measures that have been discontinued from FY 2009 to FY 2010.

ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as
well as accounting and financial management. The Integrity Act requires federal agencies to
establish controls that reasonably ensure obligations and costs are in compliance with applicable
law; funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures are properly recorded and accounted for to
maintain accountability over the assets. The Integrity Act also requires agencies to annually
assess and report on the internal controls that protect the integrity of federal programs (FMFIA
§2) and whether financial management systems conform to related requirements (FMFIA §4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In
addition to requiring agencies to provide an assurance statement on the effectiveness of
programmatic internal controls and conformance with financial systems requirements, the
Circular requires agencies to provide an assurance statement on the effectiveness of internal
control over financial reporting. The Department requires components to provide both of the
assurance statements in order to have the information necessary to prepare the agency assurance
statements.




U.S. Department of Justice



                                               - 19 -
                Management’s Discussion and Analysis




FMFIA Assurance Statement
OJP assessed its internal control over the effectiveness and efficiency of operations and
compliance with applicable laws and regulations in accordance with OMB Circular A-123, as
required by Section 2 of the FMFIA. Based on the results of this assessment, OJP can provide
reasonable assurance that its internal controls over the effectiveness and efficiency of operations,
financial reporting, and compliance with applicable laws and regulations for the period ending
September 30, 2010, were operating effectively.

OJP also assessed whether its financial management systems conform to government-wide,
requirements, as required by Section 4 of the FMFIA. Based on the results of this assessment,
OJP can provide reasonable assurance that its systems substantially conform to government-wide
requirements, except for non-conformances related to information system general controls noted
for access controls, maintenance, configuration management, and identification and
authentication controls. OJP has submitted a corrective action plan that includes adding an
additional role conflict matrix in its Account Management Automation tool, developing guidance
for routine system maintenance, implementing a new secure configuration checklist, and
verifying and changing passwords for OJP’s Enterprise Network System to address the reported
non-conformances.

Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to
improve federal financial and program managers’ accountability, provide better information for
decision-making, and improve the efficiency and effectiveness of federal programs. FFMIA
requires agencies to have financial management systems that substantially comply with federal
financial management systems requirements, applicable federal accounting standards, and the
U.S. Standard General Ledger (USSGL) at the transaction level. Furthermore, FFMIA requires
independent auditors to report on agency compliance with the three requirements in the financial
statement audit report. The Federal Information Security Management Act (FISMA) states that
to be substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.

FFMIA Compliance Determination
In accordance with OMB Circular A-127, Policies and Standards for Financial Management
Systems, OJP’s independent auditors have determined that OJP has financial management
systems that substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the USSGL at the transaction level. As required by
the Act, the independent auditors’ report on agency compliance with the three requirements is
provided in the financial statement audit report. Additionally, in accordance with FISMA, OJP
has no significant deficiencies in information security policies, procedures, or practices.




U.S. Department of Justice



                                                - 20 -
                Management’s Discussion and Analysis




POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

There are several factors and future trends that affect OJP’s goal achievement. Since 1994,
violent crime, as measured by victim surveys reported to BJS, has fallen by 66 percent and
property crime by 59 percent. Near record low rates of homicide, assault, sexual assault, and
armed robbery rates have been achieved. The proportion of serious violent crime committed by
juveniles has generally declined. Despite these positive trends, significant challenges continue to
confront the justice system. Multiple strategies are needed to deal with these problems, and it is
critical to understand what works and what does not in various contexts to inform sound policy-
making. By identifying these challenges, OJP can provide a national resource to develop the best
approaches for a wide variety of places and environments.

The Administration’s priorities for OJP are as follows:

   1. Children Exposed to Violence
   2. Justice Reinvestment
   3. Reentry-Second Chance Act
   4. Recovery Act
   5. Indigent Defense
   6. Violence Against Women


OTHER MANAGEMENT INFORMATION, INITIATIVES, AND ISSUES

OJP received $2.76 billion in Recovery Act funding in FY 2009 to assist state and local
communities with the prevention of crime, improvement of criminal justice systems,
and crime victim support, while contributing to job creation and providing much needed
resources for states and local communities. These funds are being administered through the
Bureau of Justice Assistance, Bureau of Justice Statistics, National Institute of Justice, Office of
Juvenile Justice and Delinquency Prevention, Office for Victims of Crime, and the Community
Capacity Development Office. These funds are being distributed through formula and
discretionary grant programs. The bulk of these funds ($1.98 billion) are being distributed
through the Edward Byrne Memorial Justice Assistance Grant Program, which supports all
components of the criminal justice system, including but not limited to, multijurisdictional drug
and gang task forces; crime prevention and domestic violence programs; and courts, corrections,
treatment, and justice information sharing initiatives. Please visit the OJP Recovery Act website,
http://www.ojp.usdoj.gov/recovery/, for further details on announcements, implementation, and
reporting of Recovery Act funding and data.




U.S. Department of Justice



                                                - 21 -
                Management’s Discussion and Analysis




LIMITATIONS OF THE FINANCIAL STATEMENTS

   The financial statements have been prepared to report the financial position and results of
    operations of OJP, pursuant to the requirements of 31 U.S.C. 3515(b).

   While the statements have been prepared from the books and records of OJP in accordance
    with U.S. generally accepted accounting principles for federal entities and the formats
    prescribed by OMB, the statements are in addition to the financial reports used to monitor
    and control budgetary resources, which are prepared from the same books and records.

   The statements should be read with the realization that they are for a component of the
    U.S. Government, a sovereign entity.




U.S. Department of Justice



                                              - 22 -
Independent Auditors’ Reports

This page intentionally left blank.

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Office of
Justice Programs (OJP) as of September 30, 2010 and 2009, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources (hereinafter referred
to as “consolidated financial statements”) for the years then ended. These consolidated financial statements
are the responsibility of OJP’s management. Our responsibility is to express an opinion on these
consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
OJP’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
financial statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall consolidated financial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of OJP as of September 30, 2010 and 2009 and its net costs, changes in net
position, and budgetary resources for the years then ended in conformity with U.S. generally accepted
accounting principles.

The information in the Management’s Discussion and Analysis, Required Supplementary Information, and
Required Supplementary Stewardship Information sections is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.




                                                                    - 25 -
Independent Auditors’ Report on Financial Statements
Page 2




In accordance with Government Auditing Standards, we have also issued our reports dated
November 1, 2010, on our consideration of OJP’s internal control over financial reporting and our tests of
its compliance with certain provisions of laws, regulations, contracts, and grant agreements and other
matters. The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.




November 1, 2010




                                                  - 26 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Office of Justice
Programs (OJP) as of September 30, 2010 and 2009, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 1, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of OJP is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered OJP’s internal control over financial
reporting by obtaining an understanding of OJP’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of OJP’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of OJP’s internal
control over financial reporting. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.


                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.


                                                                     - 27 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




The Exhibit presents the status of the prior year finding and recommendation.

This report is intended solely for the information and use of OJP’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 1, 2010




                                                   - 28 -
                                                                                              EXHIBIT


               STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATION

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, we have reviewed
the status of the prior year’s finding and recommendation. The following table provides our assessment of
the progress OJP has made in correcting the previously identified significant deficiency. We also provide
the Office of the Inspector General report number where the deficiency was reported, our recommendation
for improvement, and the status of the deficiency as of the end of fiscal year 2010.


                  Significant
   Report                                        Recommendation                            Status
                  Deficiency



 Annual        Improvements        Recommendation No. 1: Enhance the review of           Completed
 Financial     are needed in the   upward and downward adjustment transactions in
 Statement     system and          the Microsoft Access database and related
 Fiscal Year   controls over       journal entries to ensure only valid recoveries
 2009          budgetary           and de-obligations are recorded, as defined by
 Report No.    upward and          OMB.
 10-17         downward
               adjustments




                                                  - 29 -
This page intentionally left blank.





               - 30 -
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Office of Justice
Programs (OJP) as of September 30, 2010 and 2009, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 1, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of OJP is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to OJP. As part of obtaining reasonable assurance about whether OJP’s fiscal year
2010 consolidated financial statements are free of material misstatement, we performed tests of OJP’s
compliance with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance
with which could have a direct and material effect on the determination of the consolidated financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to OJP. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our other tests of compliance discussed in the preceding paragraph, exclusive of those
referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which OJP’s financial management system did
not substantially comply with the (1) Federal financial management systems requirements, (2) applicable
Federal accounting standards, and (3) application of the United States Government Standard General
Ledger at the transaction level.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.




                                                                   - 31 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2




This report is intended solely for the information and use of OJP’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 1, 2010




                                                - 32 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 33 -
                                                           U.S. Department of Justice

                                                           Office of Justice Programs

                                                          Consolidated Balance Sheets

                                                       As of September 30, 2010 and 2009 





Dollars in Thousands                                                                               2010             2009

ASSETS
    Intragovernmental
       Fund Balance with U.S. Treasury (Note 2)                                       $      10,519,156   $    9,306,877
       Accounts Receivable, Net (Note 3)                                                          6,883           10,372
       Other Assets (Note 5)                                                                     76,831           49,746
    Total Intragovernmental                                                                  10,602,870        9,366,995

     Accounts Receivable, Net (Note 3)                                                            5,774            7,208
     General Property, Plant and Equipment, Net (Note 4)                                         12,032           13,781
     Advances and Prepayments                                                                 1,428,298        1,337,788
Total Assets                                                                           $     12,048,974   $   10,725,772

LIABILITIES (Note 6)
    Intragovernmental
       Accounts Payable                                                               $         18,928    $      50,095
       Accrued Federal Employees' Compensation Act Liabilities                                     129              136
       Other Liabilities (Note 8)                                                              147,914          230,852
    Total Intragovernmental                                                                    166,971          281,083

     Accounts Payable                                                                           33,369           29,365
     Accrued Grant Liabilities                                                                 383,171          321,721
     Actuarial Federal Employees' Compensation Act Liabilities                                     657              494
     Accrued Payroll and Benefits                                                                7,930            7,470
     Accrued Annual and Compensatory Leave Liabilities                                           6,068            5,625
     Capital Lease Liabilities (Note 7)                                                             18               20
Total Liabilities                                                                      $       598,184    $     645,778

Contingencies and Commitments (Note 9)

NET POSITION
     Unexpended Appropriations - All Other Funds                                       $      5,571,977   $    5,951,999
     Cumulative Results of Operations - Earmarked Fund (Note 10)                              5,866,596        4,112,981
     Cumulative Results of Operations - All Other Funds                                          12,217           15,014
Total Net Position                                                                    $      11,450,790   $   10,079,994

Total Liabilities and Net Position                                                    $      12,048,974   $   10,725,772




  U.S. Department of Justice
                       The accompanying notes are an integral part of these financial statements.




                                                                 - 34 -
                                                        U.S. Department of Justice

                                                        Office of Justice Programs

                                                  Consolidated Statements of Net Cost

                                        For the Fiscal Years Ended September 30, 2010 and 2009 





Dollars in Thousands

                                      Gross Costs                              Less: Earned Revenues                          Net Cost of
                          Intra-       With the                           Intra-        With the                              Operations
             FY        governmental     Public             Total       governmental      Public                Total           (Note 11)

Goal 2      2010       $   140,429    $ 2,617,542      $ 2,757,971      $     49,844     $           7    $      49,851   $      2,708,120
            2009       $   119,310    $ 1,800,666      $ 1,919,976      $    116,353     $           -    $     116,353   $      1,803,623

Goal 3      2010            56,647         931,583          988,230           26,252                  -          26,252            961,978
            2009           105,707         918,605        1,024,312           58,795                  -          58,795            965,517

Total       2010       $   197,076    $ 3,549,125      $ 3,746,201      $     76,096     $           7    $      76,103   $      3,670,098
            2009       $   225,017    $ 2,719,271      $ 2,944,288      $    175,148     $           -    $     175,148   $      2,769,140

Goal 2    Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
Goal 3    Ensure the Fair and Efficient Administration of Justice




  U.S. Department of Justice
                       The accompanying notes are an integral part of these financial statements.




                                                                - 35 -
                                            U.S. Department of Justice

                                            Office of Justice Programs

                                   Consolidated Statements of Changes in Net Position

                                     For the Fiscal Year Ended September 30, 2010 





Dollars in Thousands

                                                                            2010
                                                 Earmarked             All Other
                                                   Funds                Funds                    Total

Unexpended Appropriations
 Beginning Balances                             $             -    $     5,951,999           $    5,951,999

 Budgetary Financing Sources
  Appropriations Received                                     -           2,501,851                2,501,851
  Appropriations Transferred-In/Out                           -             200,453                  200,453
  Other Adjustments                                           -             (54,000)                 (54,000)
  Appropriations Used                                         -          (3,028,326)              (3,028,326)
 Total Budgetary Financing Sources                            -           (380,022)                (380,022)

 Unexpended Appropriations                      $             -    $     5,571,977           $    5,571,977


Cumulative Results of Operations
 Beginning Balances                             $    4,112,981     $        15,014           $    4,127,995

 Budgetary Financing Sources
  Appropriations Used                                         -           3,028,326                3,028,326
  Nonexchange Revenues                                2,362,338                 932                2,363,270

 Other Financing Sources
  Transfers-In/Out Without Reimbursement                      -              24,608                   24,608
  Imputed Financing from Costs Absorbed
     by Others (Note 12)                                     -                4,712                    4,712
 Total Financing Sources                             2,362,338           3,058,578                5,420,916

 Net Cost of Operations                              (608,723)          (3,061,375)              (3,670,098)

 Net Change                                          1,753,615              (2,797)               1,750,818

 Cumulative Results of Operations               $    5,866,596     $        12,217           $    5,878,813

Net Position                                    $    5,866,596     $     5,584,194           $   11,450,790




 U.S. Department of Justice
                The accompanying notes are an integral part of these financial statements.




                                                    - 36 -
                                           U.S. Department of Justice

                                           Office of Justice Programs

                            Consolidated Statements of Changes in Net Position (continued) 

                                    For the Fiscal Year Ended September 30, 2009 





Dollars in Thousands

                                                                            2009
                                                   Earmarked           All Other
                                                     Funds              Funds                    Total

Unexpended Appropriations
 Beginning Balances                            $               -   $     2,881,349           $    2,881,349

 Budgetary Financing Sources
  Appropriations Received                                      -          5,036,600                 5,036,600
  Appropriations Transferred-In/Out                            -            283,817                   283,817
  Other Adjustments                                            -           (121,642)                 (121,642)
  Appropriations Used                                          -         (2,128,125)               (2,128,125)
 Total Budgetary Financing Sources                             -         3,070,650                3,070,650

 Unexpended Appropriations                     $               -   $     5,951,999           $    5,951,999

Cumulative Results of Operations
 Beginning Balances                            $     2,955,373     $        13,519           $    2,968,892

 Budgetary Financing Sources
  Appropriations Used                                         -           2,128,125                2,128,125
  Nonexchange Revenues                                1,745,678               1,171                1,746,849

 Other Financing Sources
  Transfers-In/Out Without Reimbursement                       -             49,215                   49,215
  Imputed Financing from Costs Absorbed
    by Others (Note 12)                                      -                4,054                    4,054
 Total Financing Sources                             1,745,678           2,182,565                3,928,243

 Net Cost of Operations                               (588,070)         (2,181,070)              (2,769,140)
 Net Change                                          1,157,608               1,495                1,159,103

 Cumulative Results of Operations              $     4,112,981     $        15,014           $    4,127,995

Net Position                                   $     4,112,981     $     5,967,013           $   10,079,994




 U.S. Department of Justice
                The accompanying notes are an integral part of these financial statements.




                                                    - 37 -
                                                  U.S. Department of Justice 

                                                  Office of Justice Programs

                                         Combined Statements of Budgetary Resources

                                    For the Fiscal Years Ended September 30, 2010 and 2009





Dollars in Thousands                                                                   2010               2009

Budgetary Resources

    Unobligated Balance, Brought Forward, October 1                         $      224,290      $     460,054

    Recoveries of Prior Year Unpaid Obligations                                     66,225            106,867

    Budget Authority
      Appropriations Received                                                    4,864,189          6,782,278
      Spending Authority from Offsetting Collections
         Earned
             Collected                                                             129,382            240,818
             Change in Receivables from Federal Sources                             (3,489)               599
         Change in Unfilled Customer Orders
             Advance Received                                                      (83,090)          (216,745)
             Without Advance from Federal Sources                                    4,745            (12,506)
    Subtotal Budget Authority                                                    4,911,737          6,794,444

    Nonexpenditure Transfers, Net, Anticipated and Actual                          200,453            283,817

    Temporarily not Available Pursuant to Public Law                             (1,654,425)        (1,295,083)

    Permanently not Available                                                      (54,000)          (121,642)

Total Budgetary Resources (Note 13)                                         $    3,694,280      $   6,228,457




 U.S. Department of Justice
                   The accompanying notes are an integral part of these financial statements.




                                                            - 38 -
                                                      U.S. Department of Justice

                                                      Office of Justice Programs

                                      Combined Statements of Budgetary Resources (Continued)

                                       For the Fiscal Years Ended September 30, 2010 and 2009





Dollars in Thousands                                                                    2010              2009

Status of Budgetary Resources

     Obligations Incurred
       Direct                                                                 $   3,434,149      $   5,945,243
       Reimbursable                                                                  27,631             58,924
          Total Obligations Incurred (Note 13)                                    3,461,780          6,004,167
     Unobligated Balance - Available
       Apportioned                                                                  208,972           225,179
     Unobligated Balance not Available                                               23,528              (889)

Total Status of Budgetary Resources                                           $   3,694,280      $   6,228,457

Change in Obligated Balance

     Obligated Balance, Net - Brought Forward, October 1
        Unpaid Obligations                                                    $   5,959,947      $   3,927,350
        Less: Uncollected Customer Payments from Federal Sources                     24,410             36,317
           Total Unpaid Obligated Balance, Net - Brought Forward, October 1       5,935,537          3,891,033
     Obligations Incurred, Net                                                    3,461,780          6,004,167
     Less: Gross Outlays                                                          3,844,655          3,864,703
     Less: Recoveries of Prior Year Unpaid Obligations, Actual                       66,225            106,867
     Change in Uncollected Customer Payments from Federal Sources                    (1,256)            11,907

     Obligated Balance, Net - End of Period
       Unpaid Obligations                                                         5,510,847          5,959,947
       Less: Uncollected Customer Payments from Federal Sources                      25,666             24,410
          Total Unpaid Obligated Balance, Net - End of Period                 $   5,485,181      $   5,935,537

Net Outlays
    Gross Outlays                                                             $   3,844,655      $   3,864,703
    Less: Offsetting Collections                                                     46,292             24,071
    Less: Distributed Offsetting Receipts (Note 13)                                     242              1,362
Total Net Outlays (Note 13)                                                   $   3,798,121      $   3,839,270




  U.S. Department of Justice
                    The accompanying notes are an integral part of these financial statements.




                                                         - 39 -
               Notes to the Financial Statements




                                  U.S. Department of Justice 

                                   Office of Justice Programs 

                               Notes to the Financial Statements

                   For the Fiscal Years Ended September 30, 2010 and 2009
                           (Dollars in Thousands, Except as Noted)


 1.   Summary of Significant Accounting Policies

      A. Reporting Entity

      The Office of Justice Programs (OJP) is a reporting entity within the U.S. Department of
      Justice (DOJ). The Justice Act of 1984 created OJP to work within established partnership
      arrangements with federal, state and local agencies and community-based organizations to
      develop, operate, and evaluate a wide range of criminal and juvenile justice programs. OJP is
      authorized by Congress to award grants, contracts, cooperative agreements, and other
      assistance authorized by Title I of the Omnibus Crime Control and Safe Street Act of 1968.
      OJP is primarily funded by several no-year, multi-year, and annual appropriations.

      The American Recovery and Reinvestment Act of 2009 (Recovery Act) (Public Law 111-5)
      was signed into law by President Barack Obama on February 17, 2009. As one of its many
      elements, the Recovery Act provides the DOJ with funding for grants to assist state, local,
      and tribal law enforcement (including support for hiring), to combat violence against women,
      to fight internet crimes against children, to improve the functioning of the criminal justice
      system, to assist victims of crime, and to support youth mentoring.

      OJP is comprised of the following bureaus and program offices:

      Bureau of Justice Assistance (BJA) provides leadership and assistance in support of local
      criminal justice strategies to achieve safe communities. BJA’s goals are to reduce and
      prevent crime, violence, and drug abuse and to improve the functioning of the criminal
      justice system. BJA administers programs that bolster law enforcement operations, expand
      drug courts, and provide benefits to public safety officers.

      Bureau of Justice Statistics (BJS) is the primary statistical agency of the DOJ. BJS
      collects, analyzes, publishes, and disseminates information on crime, criminal offenders,
      crime victims, and criminal justice operations, and provides financial and technical support to
      state, local, and tribal governments to improve their statistical capabilities and the quality and
      utility of their criminal history records.




U.S. Department of Justice
                     These notes are an integral part of these financial statements.




                                                   - 40 -
            Notes to the Financial Statements




    A.     Reporting Entity (Continued)

    National Institute of Justice (NIJ) is the research arm of the DOJ and is dedicated to
    researching crime control and justice issues. NIJ advances the application of science and
    technology to matters of criminal justice by providing objective, independent, evidence-based
    knowledge and tools to meet the challenges posed by crime.

    Office of Juvenile Justice and Delinquency Prevention (OJJDP) supports state and
    community efforts to prevent and respond to juvenile delinquency and victimization.
    Through programs that offer mentoring, provide treatment and rehabilitation, and hold
    juvenile offenders accountable, OJJDP strives to improve the juvenile justice system so that
    the public is better protected, and youth and their families are better served.

    Office for Victims of Crime (OVC) works to enhance America’s capacity to assist crime
    victims by helping to change attitudes, policies, and practices. OVC supports a wide range of
    activities using the Crime Victims’ Fund (CVF), which is composed of federal criminal fines
    and penalties, special assessments, and bond forfeitures. These activities include victim
    compensation and assistance services, training and technical assistance for service providers
    and criminal justice professionals, and program evaluation.

    Community Capacity Development Office (CCDO) is responsible for the direction and
    management of the national Weed and Seed Program, as well as community capacity
    development efforts. CCDO develops, evaluates, and implements policies that serve as a
    catalyst and model for other national community capacity development efforts; and provides
    counseling for federal, state, and local government agencies and private sector clients on a
    variety of justice-related community issues. In this capacity, CCDO provides direction,
    oversight, and guidance to prevent, control, and reduce violent crime, drug abuse, and gang
    activity in designated high-crime neighborhoods across the country.

    Office of Sex Offender Sentencing, Monitoring, Apprehending, Registering, and
    Tracking (SMART) was authorized by the Adam Walsh Child Protection and Safety Act of
    2006. The primary assignment of SMART is to ensure that convicted sex offenders are
    prohibited from preying on citizens through an organization of restrictions, regulations, and
    internment. SMART is responsible for establishing and maintaining the standards for the Sex
    Offender Registration and Notification Program, as described by the Adam Walsh Act.
    SMART also oversees grant programs regarding sex offender registration and notification.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.




                                                 - 41 -
             Notes to the Financial Statements




    A.      Reporting Entity (Continued)

    OJP Principal Accounts

    In fiscal years (FY) 2010 and 2009, OJP’s financial structure was comprised of these
    principal accounts: Justice Assistance (JA), State and Local Law Enforcement Assistance
    (SLLEA), Juvenile Justice Programs (JJ), Weed and Seed Program (WS), Public Safety
    Officers’ Benefits Program (PSOB), Salaries and Expenses, and the CVF. In FY 2009, the
    Recovery Act and a Salaries and Expenses account were added.

    OJP Goals

    In compliance with the statutory framework of the Government Performance and Results Act
    (GPRA) of 1993 (P.L. 103-62), OJP aligns its programs and activities with Goals 2 and 3 of
    the Attorney General’s strategic goals, which are:

         Goal 2 – Prevent Crime, Enforce Federal Laws, and Represent the Rights and
                  Interests of the American People
         1.	 Strengthen partnerships for safer communities and enhance the Nation’s capacity to
             prevent, solve, and control crime
         2.	 Prevent, suppress, and intervene in crimes against children

         Goal 3 – Ensure the Fair and Efficient Administration of Justice
         1.	 Promote and strengthen innovative strategies in the administration of state and local
             justice systems
         2.	 Uphold the rights and improve services to America’s crime victims

    B.	 Basis of Presentation

    These financial statements were prepared from the books and records of OJP, in accordance
    with the United States generally accepted accounting principles issued by the Federal
    Accounting Standards Advisory Board (FASAB) and presentation guidelines of the Office of
    Management and Budget (OMB) Circular A-136, Financial Reporting Requirements. These
    financial statements are different from the financial reports prepared pursuant to OMB
    directives which are used to monitor and control the use of OJP’s budgetary resources.
    To ensure that the OJP financial statements are meaningful at the entity level and to enhance
    reporting consistency within the Department, Other Assets and Other Liabilities, as defined
    by OMB Circular A-136 have been disaggregated on the balance sheet. These include
    Advances and Prepayments, Accrued Federal Employees’ Compensation Act (FECA)
    Liabilities, Accrued Payroll and Benefits, Accrued Annual and Compensatory Leave
    Liabilities, Accrued Grant Liabilities with the Public, and Capital Lease Liabilities.




U.S. Department of Justice
                    These notes are an integral part of these financial statements.




                                                - 42 -
            Notes to the Financial Statements




    C. Basis of Consolidation

    The consolidated/combined financial statements include the accounts of OJP. All significant
    proprietary intra-entity transactions and balances have been eliminated in consolidation. The
    Statements of Budgetary Resources are combined statements for FY 2010 and 2009, and as
    such, intra-entity transactions have not been eliminated.

    D. Basis of Accounting

    Transactions are recorded on the accrual and budgetary bases of accounting. Under the
    accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
    regardless of when cash is exchanged. Under the budgetary basis, however, funds
    availability is recorded based upon legal considerations and constraints. As a result, certain
    line items on the proprietary financial statements may not equal similar line items on the
    budgetary financial statements.

    E. Non-Entity Assets

    Non-entity assets are assets held by an entity but are not available for use by the entity. OJP
    does not have any non-entity assets.

    F. Fund Balance with U.S. Treasury and Cash

    The Fund Balance with U.S. Treasury includes appropriated funds that are available to pay
    current liabilities and to fund authorized purchase commitments. The U.S. Department of
    Treasury (Treasury) processes the cash receipts and cash disbursements of OJP. OJP’s
    records are reconciled with those of Treasury.

    Available unobligated balances represent amounts that are apportioned for obligation in the
    current fiscal year. Unavailable unobligated balances represent amounts that are not
    apportioned for obligation during the current fiscal year and expired appropriations no longer
    available to incur new obligations. Obligated balances not yet disbursed include undelivered
    orders and unpaid delivered orders.

    G. Accounts Receivable

    Accounts Receivable result from reimbursable agreements entered into by OJP with other
    federal agencies for various goods and services. Since OJP’s accounts receivable balance
    consists of amounts due by other federal agencies, an allowance for doubtful accounts has not
    been established.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.




                                               - 43 -
            Notes to the Financial Statements




    G. Accounts Receivable (Continued)

    Accounts Receivable with the Public is an estimate of amounts due from grantees for expired
    grants. OJP evaluates the necessity of establishing the allowance for doubtful accounts based
    on historical trends of collectability of closed grants.

    Pursuant to 28 CFR Part II, OJP has authorized Treasury’s Financial Management Services to
    collect debts on our behalf. When OJP determines that our internal efforts are unsuccessful,
    the debtor is referred to Treasury and a receivable is set-up in our records. The types of debts
    that are normally referred to Treasury are grants and payment programs with the public.

    H. General Property, Plant and Equipment

    The U.S. General Services Administration (GSA) provides the buildings in which OJP
    operates and charges rent equivalent to the commercial rental rates for similar properties.
    Acquisitions of equipment and assets under capital lease costing twenty-five thousand dollars
    or more are capitalized. Depreciation is calculated using the straight-line basis using
    historical cost and a five-year useful life. Equipment with an acquisition cost of less than
    twenty-five thousand dollars is expensed when purchased. Equipment consists primarily of
    computer network components.

    Internal Use Software meeting the cost threshold and useful life criteria is also capitalized.
    Internal Use Software is either purchased off the shelf and modified, internally developed, or
    contractor developed solely to meet the agency’s internal needs. OJP capitalizes the cost of
    internal use software when the development phase costs exceed five hundred thousand
    dollars and the software is expected to have a service life of two or more years. Amortization
    is calculated using the straight-line basis using historical cost and a five-year useful life.

    I. Advances and Prepayments

    Advances and Prepayments, classified as assets on OJP’s Balance Sheet, represent funds
    disbursed to individuals and other organizations for which goods or services have not yet
    been provided. OJP awards grants to various grantees and provides advance payments to
    grantees to meet their cash needs to carry out their programs. Advance payments are
    recorded as “Advances to Grantees” and are adjusted upon grantees’ reporting expenditures
    and/or based on the estimated accrual for unreported expenses. These balances primarily
    consist of funds disbursed to grantees in the Justice Assistance Grant Program, as well as
    advances for discretionary/non-block grants.

    Advances and Prepayments involving other federal agencies are classified as Other Assets on
    the Balance Sheet.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.




                                                 - 44 -
            Notes to the Financial Statements




    J. Liabilities

    Liabilities represent actual and estimated amounts likely to be paid as a result of transactions
    or events that have already occurred. However, no liabilities can be paid by OJP without an
    appropriation or other collection of revenue for services provided. Liabilities not covered by
    budgetary resources include liabilities for which an appropriation has not been enacted and
    there is no certainty that it will be enacted.

    Accounts Payable primarily consists of amounts due for goods and services received,
    progress in contract performance, interest due on accounts payable, and other miscellaneous
    payables.

    K. Accrued Grant Liabilities

    Disbursements of grant funds are recognized as expenses at the time of disbursement.
    However, some grant recipients incur expenditures prior to initiating a request for
    disbursement based on the nature of the expenditures. OJP accrues an estimated liability for
    expenditures incurred by grantees prior to their receiving grant funds for the expenditures.
    These estimates are based on the most current information available to OJP at the time the
    financial statements are prepared. OJP’s management has established a process to review
    these estimates in the context of subsequent changes in activity and assumptions, and to
    reflect the impact of these changes as appropriate.

    Estimates for the grant accrual contain assumptions that have an impact on the financial
    statements. The key assumptions used in the grant accrual are: grantees have consistent
    spending patterns throughout the life of the grant, grantees will drawdown throughout the life
    of the grant, and the grant has a determined end date. The primary elements of these
    assumptions include, but are not limited to, type of grant that has been awarded, grant period,
    accounting basis used by the grantees, and grant expenditure rate.

    L. Contingencies and Commitments

    OJP is party to various administrative proceedings, legal actions, and claims. The balance sheet
    includes an estimated liability for those legal actions where management and the Chief Counsel
    consider adverse decisions “probable” and amounts are reasonably estimable. However, there are
    cases where amounts have not been accrued because the amounts of the potential loss cannot be
    estimated or the likelihood of an unfavorable outcome is remote.




U.S. Department of Justice
                     These notes are an integral part of these financial statements.




                                                   - 45 -
            Notes to the Financial Statements




    M. Annual, Sick, and Other Leave

    Annual and compensatory leave is expensed with an offsetting liability as it is earned and the
    liability is reduced as leave is taken. At the end of each quarter, the balance in the accrued
    annual leave liability reflects current pay rates and leave balances. Because current or prior
    year appropriations are not available to fund annual and compensatory leave earned but not
    taken, funding will be obtained from future financing sources.

    Sick leave and other types of non-vested leave are expensed as taken.

    N. Interest on Late Payments

    Pursuant to the Prompt Payment Act, 31 U.S.C. 3901-3907, federal agencies must pay
    interest on payments for goods or services made to business concerns after the due date. The
    due date is generally 30 days after the latest of the following dates: (1) date on the invoice,
    (2) date the invoice is received, (3) date when the goods or services are received, or (4) the
    date when the goods or services are accepted.

    O. Retirement Plans

    With few exceptions, employees hired before January 1, 1984, are covered by the Civil
    Service Retirement System (CSRS) and employees hired on or after that date are covered by
    the Federal Employees Retirement System (FERS).

    For employees covered by the CSRS, OJP contributes 7.0 percent of the employee’s gross
    pay for normal retirement. For employees covered by the FERS, OJP contributes
    approximately 11.2 percent of gross pay. All employees are eligible to contribute to the
    Federal Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP
    account is established and OJP contributes 1.0 percent of gross pay to this plan. In addition,
    for FERS employees, TSP contributions are matched 100.0 percent for the first 3.0 percent
    and 50.0 percent for the 4th and 5th percentage of gross pay. No matching contributions are
    made to the TSP accounts for those employees covered by CSRS. The accompanying
    financial statements do not report CSRS or the FERS assets, accumulated plan benefits, or
    unfunded liabilities, if any, which may be applicable to OJP employees. Such reporting is the
    responsibility of the Office of Personnel Management (OPM).

    Contributions for CSRS, FERS and other retirement benefits are insufficient to fully fund the
    programs, which are subsidized by the OPM. The Department imputes its share of the OPM
    subsidy, using cost factors OPM provides, and reports the full cost of the programs related to
    its employees.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.




                                                 - 46 -
            Notes to the Financial Statements




    P. Federal Employee Compensation Benefits

    The Federal Employees’ Compensation Act (FECA) provides income and medical cost
    protection to covered federal civilian employees injured on the job, employees who have
    contracted a work-related occupational disease, and beneficiaries of employees whose death
    is attributable to a job-related injury or occupational disease. Claims incurred for benefits for
    OJP employees under FECA are administered by the U.S. Department of Labor (DOL) and
    are ultimately paid by OJP. The FECA liability consists of two components. The first
    component is based on actual claims paid by the DOL but not yet reimbursed by OJP. OJP
    reimburses the DOL for the amount of actual claims as funds are appropriated for this
    purpose. There is generally a two- to three-year time period between payment by the DOL
    and reimbursement by OJP. As a result, a liability is recognized for the actual claims paid by
    the DOL and to be reimbursed by OJP.

    The second component is the estimated liability for future benefit payments as a result of past
    events. The DOL calculates the liability of the federal government for future compensation
    benefits, which includes the expected liability for death, disability, medical, and other
    approved costs. This method utilizes historical benefit payment patterns related to a specified
    incurred period to predict the ultimate payments related to that period. The projected annual
    benefit payments were discounted to present value. The resulting federal government
    liability was then distributed by the DOL to the agencies. DOJ calculates and distributes
    each bureau’s respective portion of the total DOJ actuarial liability that is recorded for
    reporting purpose only. OJP’s portion of this liability includes the estimated future cost of
    death benefits, workers’ compensation, medical, and miscellaneous cost for approved
    compensation cases for OJP employees.

    Q. Intragovernmental Activity

    Intragovernmental costs and exchange revenue represent transactions made between two
    reporting entities within the federal government. Costs and earned revenues with the public
    represent exchange transactions made between the reporting entity and a non-federal entity.
    The classification of revenue or costs as “intragovernmental” or “with the public” is defined
    on a transaction-by-transaction basis. The purpose of this classification is to enable the
    federal government to prepare consolidated financial statements, not to match public and
    intragovernmental revenue with the costs incurred to produce public and intragovernmental
    revenue.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.




                                                - 47 -
            Notes to the Financial Statements




    R. 	Revenues and Other Financing Sources

    OJP receives funding needed to support its activities through no-year, multi-year and annual
    appropriations that may be used, within statutory limits, for operating and capital
    expenditures. Additionally, OJP earns exchange revenue through inter-agency agreements
    with other federal entities for which OJP provides grant administration services. The
    majority of the partnering is with other DOJ components. Revenues are recognized at the
    time related program or administrative expenses are incurred. For agreements, OJP records
    its intra-agency agreements as either exchange revenue or transfers-in, depending on the
    corresponding treatment by other DOJ components, to facilitate the DOJ-wide elimination
    process. The revenue generated from these reimbursable activities is based on the full cost
    pricing policy. Under full cost pricing, indirect costs and overheads are fully absorbed into
    the costs of activities.

    OJP receives nonexchange revenue for the CVF from collections of fines, penalty
    assessments, and bond forfeitures from defendants convicted of federal crimes. The CVF
    was established by the Victims of Crime Act of 1984 (P.L. 98-473), as amended by the
    Children’s Justice and Assistance Act of 1986 (P.L. 99-401), and reauthorized by the Anti-
    Drug Abuse Act of 1988 (P.L. 100-690). Funds collected are available for obligation subject
    to Congressional limitation.

    S. 	Earmarked Funds

    As defined in SFFAS No. 27, Identifying and Reporting Earmarked Funds, Earmarked Funds
    are financed by specifically identified revenues, often supplemented by other financing
    sources, which remain available over time. These specifically identified revenues and other
    financing sources are required by statute to be used for designated activities, benefits or
    purposes, and must be accounted for separately from the Government’s general revenues.
    The CVF is the only OJP fund meeting the criteria listed below.
    The three required criteria for an earmarked fund are:

        1. 	 A statute committing the federal government to use specifically identified revenues
             and other financing sources only for designated activities, benefits, or purposes;

        2. 	 Explicit authority for the earmarked fund to retain revenues and other financing
             sources not used in the current period for future use to finance the designated
             activities, benefits, or purposes; and

        3.	 A requirement to account for and report on the receipt, use, and retention of the
            revenues and other financing sources that distinguishes the earmarked fund from the
            Government’s general revenues.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.




                                               - 48 -
            Notes to the Financial Statements




    T. Allocation Transfer of Appropriations

    OJP is a party to allocation transfers with another federal agency as a transferring (parent)
    entity. Allocation transfers are legal delegations by one department of its authority to
    obligate budget authority and outlay funds to another department. A separate fund account
    (allocation account) is created in the U.S. Treasury as a subset of the parent fund account for
    tracking and reporting purposes. All allocation transfers of balances are credited to this
    account, and subsequent obligations and outlays incurred by the child entity are charged to
    this allocation account as they execute the delegated activity on behalf of the parent entity.
    Generally, all financial activity related to these allocation transfers (e.g., budget authority,
    obligations, outlays) is reported in the financial statements of the parent entity, from which
    the underlying legislative authority, appropriations, and budget apportionments are derived.

    U. Tax Exempt Status

    As an agency of the federal government, OJP is exempt from all income taxes imposed by
    any governing body whether it be a federal, state, commonwealth, local, or foreign
    government.

    V. Use of Estimates

    The preparation of the financial statements requires management to make certain estimates
    and assumptions that affect the reported amounts of assets and liabilities and the reported
    amounts of revenue and expenses during the reporting period. Actual results could differ
    from those estimates.

    The assumptions are continuously reviewed and refined in order to reflect the variance
    between the estimate and actual data. OJP recognizes the sensitivity of the changes in
    assumptions and the impact that the projections can have on estimates.

    W. Reclassifications

    The FY 2009 statements were reclassified to conform to the FY 2010 Departmental financial
    statement presentation requirements. The reclassifications had no effect on total assets,
    liabilities, net position, change in net position or budgetary resources as previously reported.

    X. Subsequent Events

    Subsequent events and transactions occurring after September 30, 2010, through the date of
    the auditors’ opinion have been evaluated for potential recognition or disclosure in the
    financial statements. The date of the auditors’ opinion also represents the date that the
    financial statements were available to be issued.

U.S. Department of Justice
                   These notes are an integral part of these financial statements.




                                               - 49 -
                 Notes to the Financial Statements




2.     Fund Balance with U.S. Treasury

The Fund Balance with U.S. Treasury, as reported in the financial statements, represents the
unexpended cash balances in OJP’s accounting records for all OJP Treasury Symbols, as of
September 30, 2010 and 2009. The CVF Fund Balance with Treasury is presented as Special Funds
type.

The unobligated balance for annual, multi-year, and no-year budget authority may be used to incur
new obligations for the purpose specified by the appropriation act. Annual and multi-year budget
authority expires at the end of its period of availability. During the first through the fifth expired
years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or
bona fide need arising in the fiscal year for which the appropriation was made. The unobligated
balance for no-year budget authority may be used to incur obligations indefinitely for the purpose
specified by the appropriation act.

Under the Status of Fund Balances, the CVF funds unavailable for spending are included in Other
Funds without Budgetary Resources.

An analysis of the balances as of September 30, 2010 and 2009, is provided below:



       As of September 30, 2010 and 2009
                                                                        2010                  2009
       Fund Balances
        Special Funds                                            $     5,938,699          $   4,203,542
        General Funds                                                  4,580,457              5,103,335
          Total Fund Balances with U.S. Treasury                 $    10,519,156          $   9,306,877

       Status of Fund Balances
         Unobligated Balance - Available                         $       208,972          $     225,179
         Unobligated Balance - Unavailable                                23,528                   (889)
         Obligated Balance not yet Disbursed                           5,485,181              5,935,537
         Other Funds (With)/Without Budgetary Resources                4,801,475              3,147,050
           Total Status of Fund Balances                         $    10,519,156          $   9,306,877




     U.S. Department of Justice
                        These notes are an integral part of these financial statements.




                                                    - 50 -
                    Notes to the Financial Statements




3.     Accounts Receivable, Net

Accounts Receivable represent the amounts due to OJP, as of September 30, 2010 and 2009, as
shown in the following table. Accounts Receivable with the Public is an estimate of amounts
due from grantees for expired grants.



           As of September 30, 2010 and 2009
                                                                         2010                  2009
           Intragovernmental
               Accounts Receivable                                $           6,883       $      10,372

           With the Public
              Accounts Receivable                                            5,774                7,208
                 Total Accounts Receivable, Net                   $         12,657        $      17,580




4.     General Property, Plant and Equipment, Net

Property, Plant and Equipment, as reported in the financial statements, is recorded at the acquisition
cost, net of accumulated depreciation, as of September 30, 2010 and 2009. In FY 2010 and 2009,
OJP purchased $4,141 and $4,545 respectively, in property, plant, and equipment. All equipment has
been purchased through non-federal sources. See Note 1.H for method of depreciation, capitalization
thresholds, and useful lives.



      As of September 30, 2010
                                                   Acquisition        Accumulated       Net Book      Useful
                                                     Cost             Depreciation       Value          Life
      Equipment                                   $      7,546        $    (4,405)    $      3,141    5 years
      Assets Under Capital Lease                             27                (16)             11    5 years
      Internal Use Software                            27,527             (21,062)           6,465    5 years
      Internal Use Software in Development               2,415                    -          2,415     N/A
      Total                                       $    37,515         $   (25,483)    $     12,032




     U.S. Department of Justice
                            These notes are an integral part of these financial statements.




                                                        - 51 -
                    Notes to the Financial Statements




4.     General Property, Plant and Equipment, Net (Continued)


      As of September 30, 2009
                                                    Acquisition     Accumulated          Net Book          Useful
                                                      Cost           Depreciation         Value              Life
      Equipment                                   $       6,836     $     (4,675)      $      2,161        5 years
      Assets Under Capital Lease                              27              (10)               17        5 years
      Internal Use Software                             27,203           (16,047)            11,156        5 years
      Internal Use Software in Development                   447                 -              447         N/A
      Total                                       $     34,513      $    (20,732)      $     13,781



5.     Other Assets

Other Assets represent monies advanced to other Federal entities, primarily the United States
Marshals Service (USMS), the Offices, Boards, and Divisions (OBDs), and the Bureau of Prisons
(BOP) for inter-agency agreements. The agreement with the USMS is to help build, expand or
renovate correctional facilities and jails for the confinement of violent offenders. The agreements
with the OBDs are for the administering of community oriented policing grants. The agreements
with the BOP are for training and clearinghouse activities designed to reduce or eliminate incidents
of prison sexual abuse.



      As of September 30, 2010 and 2009
                                                                                     2010                 2009
      Intragovernmental
          Advances and Prepayments                                             $     76,831           $   49,746




     U.S. Department of Justice
                            These notes are an integral part of these financial statements.




                                                       - 52 -
                  Notes to the Financial Statements




6.     Liabilities not Covered by Budgetary Resources

Liabilities not Covered by Budgetary Resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. These liabilities, as of September 30, 2010 and
2009, are presented in the table below.




       As of September 30, 2010 and 2009
                                                                             2010              2009
       Intragovernmental
         Accrued FECA Liabilities                                        $         129     $      136
         Other Unfunded Employment Related Liabilities                              27             11
           Total Intragovernmental                                                 156            147

       With the Public
        Actuarial FECA Liabilities                                                657              494
        Accrued Annual and Compensatory Leave Liabilities                       6,068            5,625
          Total With the Public                                                 6,725            6,119
          Total Liabilities not Covered by Budgetary Resources                  6,881            6,266
          Total Liabilities Covered by Budgetary Resources                    591,303          639,512
          Total Liabilities                                              $    598,184      $   645,778




     U.S. Department of Justice
                         These notes are an integral part of these financial statements.




                                                     - 53 -
                   Notes to the Financial Statements




7.     Leases

Capital leases consist of leased equipment with various expiration dates. The capital lease term dates
do not exceed 2013. The leased equipment is being depreciated in accordance with the length of the
lease. Following is a summary of assets under capital lease and a schedule of minimum lease
payments.



      As of September 30, 2010 and 2009

      Capital Leases                                                          2010              2009

      Summary of Assets Under Capital Lease
       Machinery and Equipment                                           $            27    $           27
       Accumulated Amortization                                                      (16)              (10)
         Total Assets Under Capital Lease (Note 4)                      $             11    $           17




      Future Capital Lease Payments Due
                                                                         Machinery and
       Fiscal Year                                                        Equipment
         2011                                                           $            12
         2012                                                                         7
         2013                                                                         1
          Total Future Capital Lease Payments                                        20
      Less: Imputed Interest                                                         (2)
        FY 2010 Net Capital Lease Liabilities                           $            18
        FY 2009 Net Capital Lease Liabilities                           $            20




                                                                              2010              2009
      Net Capital Lease Liabilities Covered by Budgetary Resources      $             18    $          20




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.




                                                       - 54 -
                   Notes to the Financial Statements




7.     Leases (Continued)

Operating leases consist of leased equipment with various expiration dates, which do not exceed
2015. Operating leases also include leased payments made to the GSA for the building occupied by
OJP. Following is a schedule of minimum non-cancelable operating lease payments that reflects
commitments for lease agreements with terms in excess of one year.



      Operating Lease Expenses


      Lease Type                                                              2010              2009
       Noncancelable Operating Leases                                   $            93     $        97
       Cancelable Operating Leases                                               13,269          12,459
          Total Operating Lease Expenses                                $        13,362     $    12,556




      Future Noncancelable Operating Lease Payments Due


                                                                         Machinery and
      Fiscal Year                                                         Equipment
        2011                                                            $            74
        2012                                                                         70
        2013                                                                         69
        2014                                                                         69
        2015                                                                         56
          Total Future Noncancelable Operating
             Lease Payments                                             $            338




     U.S. Department of Justice
                          These notes are an integral part of these financial statements.




                                                      - 55 -
                  Notes to the Financial Statements




8.     Other Liabilities
Typically, OJP enters into reimbursable agreements to award funds to various grant recipients on
behalf of other federal agencies. Once expenses are incurred by the grantees, the Advances from
Others account balance is reduced. In addition, Other Liabilities include both funded and unfunded
payroll costs. As of September 30, 2010 and 2009, all other liabilities are current and are presented
in the following table:


       As of September 30, 2010 and 2009
                                                                              2010               2009
       Intragovernmental
         Employer Contributions and Payroll Taxes Payable                 $        869       $       765
         Other Post-Employment Benefits Due and Payable                             41                10
         Other Unfunded Employment Related Liabilities                              28                11
         Advances from Others                                                  146,976           230,066
           Total Intragovernmental                                             147,914           230,852
             Total Other Liabilities                                      $    147,914       $   230,852



9.     Contingencies and Commitments

OJP is a party in various administrative proceedings, legal actions, and claims brought by or against
it. In the opinion of OJP’s management and legal counsel, the ultimate resolution of these
proceedings, actions, and claims, is remote and potential loss is immaterial.

10. Earmarked Fund

In 1984, Congress enacted the Victims of Crime Act (VOCA), which authorized the establishment of
the CVF and its direct services programs and national-scope training and technical assistance efforts
on behalf of crime victims. In support of VOCA, OJP provides federal leadership for the rights and
needs of crime victims through policy development, funding promising practices, public awareness,
educational activities intended to promote justice for crime victims, and monitoring compliance with
federal victims’ rights statutes. Nonexchange revenue results from assessed criminal fines collected
by the U.S. Courts, the U.S. Army, and the DOJ Office of Debt Collection Management.

CVF receipts are not available for obligation during the year of collection; rather, the receipts
accumulate and are available for obligation in the following year, pursuant to Congressional
approval.

     U.S. Department of Justice
                           These notes are an integral part of these financial statements.




                                                       - 56 -
                   Notes to the Financial Statements




10. Earmarked Fund (continued)

The following table shows the Earmarked Fund, as of and for the fiscal years ended September 30,
2010 and 2009.


    As of September 30, 2010 and 2009                                  2010                  2009
                                                                 Crime Victims Fund    Crime Victims Fund
    Balance Sheet
     Assets
        Fund Balance with U.S. Treasury                           $      5,938,699      $     4,203,542
        Other Assets                                                         3,380                3,807
           Total Assets                                           $      5,942,079      $     4,207,349

     Liabilities
        Accounts Payable                                          $         15,560      $        36,329
        Other Liabilities                                                   59,923               58,039
            Total Liabilities                                     $         75,483      $        94,368

     Net Position
       Cumulative Results of Operations                           $      5,866,596      $     4,112,981
          Total Net Position                                      $      5,866,596      $     4,112,981
          Total Liabilities and Net Position                      $      5,942,079      $     4,207,349


    For the Fiscal Years Ended September 30, 2010 and 2009

     Statement of Net Cost
         Gross Cost of Operations                                 $        608,723      $       588,070
         Less: Exchange Revenues                                                 -                    -
           Net Cost of Operations                                 $        608,723      $       588,070

     Statement of Changes in Net Position
       Net Position Beginning of Period                           $      4,112,981      $     2,955,373

        Budgetary Financing Sources                                      2,362,338            1,745,678

        Net Cost of Operations                                            (608,723)            (588,070)
        Net Change                                                       1,753,615            1,157,608
        Net Position End of Period                                $      5,866,596      $     4,112,981



  U.S. Department of Justice
                            These notes are an integral part of these financial statements.




                                                       - 57 -
                      Notes to the Financial Statements




11. Net Cost of Operations by Suborganization

The following tables show the Net Cost of Operations for each of the DOJ’s goals by
suborganization, for the fiscal years ended September 30, 2010 and 2009, respectively.


   For the Fiscal Year Ended September 30, 2010

                                                                                    Suborganizations
                                                       JA               SLLEA             JJ           CVF          OTHER         Consolidated

    Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

        Gross Cost                                $    75,453         $ 2,068,834     $ 280,922 $             - $     332,762 $       2,757,971
        Less: Earned Revenue                            8,143              35,372           512               -         5,824            49,851
        Net Cost (Revenue) of Operations               67,310           2,033,462       280,410               -       326,938         2,708,120

    Goal 3: Ensure the Fair and Efficient Administration of Justice

        Gross Cost                                    114,956            263,863              688      608,723              -           988,230
        Less: Earned Revenue                            7,680             18,576               (4)           -              -            26,252
        Net Cost (Revenue) of Operations              107,276            245,287              692      608,723              -           961,978

     Net Cost (Revenue) of Operations             $ 174,586           $ 2,278,749     $ 281,102 $ 608,723 $           326,938 $       3,670,098




   For the Fiscal Year Ended September 30, 2009

                                                                                    Suborganizations
                                                       JA               SLLEA             JJ           CVF          OTHER         Consolidated

    Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

        Gross Cost                                $    98,976         $ 1,154,553     $ 326,972 $            48 $     339,427 $       1,919,976
        Less: Earned Revenue                           37,891              69,682         1,132               -         7,648           116,353
        Net Cost (Revenue) of Operations               61,085           1,084,871       325,840              48       331,779         1,803,623

    Goal 3: Ensure the Fair and Efficient Administration of Justice

        Gross Cost                                    140,080            294,994            1,216      588,022              -         1,024,312
        Less: Earned Revenue                            8,869             49,511              415            -              -            58,795
        Net Cost (Revenue) of Operations              131,211            245,483              801      588,022              -           965,517

     Net Cost (Revenue) of Operations             $ 192,296           $ 1,330,354     $ 326,641 $ 588,070 $           331,779 $       2,769,140




  U.S. Department of Justice
                                 These notes are an integral part of these financial statements.




                                                                        - 58 -
                Notes to the Financial Statements




12. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and
under-reimbursed) portion of the full costs of goods and services received by OJP from a providing
entity that is not part of the U.S. Department of Justice. In accordance with SFFAS No. 30, “Inter-
Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and
Concepts”, the material Imputed Inter-Departmental financing sources recognized by OJP are the
actual cost of future benefits for the Federal Employees Health Benefits Program (FEHB), the
Federal Employees’ Group Life Insurance Program (FEGLI), and the Federal Pension plans that are
paid by other federal entities.

SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’ active
years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost.
OPM actuaries calculate the value of pension benefits expected to be paid in the future, and then
determine the total funds to be contributed by and for covered employees, such that the amount
calculated would be sufficient to fund the projected pension benefits. For employees covered by
CSRS, the cost factors are 30.1 percent of basic pay for regular, and 23.5 percent for regular offset.
For employees covered by FERS, the cost factors are 13.8 percent of basic pay for regular.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are
paid by other federal entities, must also be recorded.

There are no material imputed intra-departmental financing sources.



     For the Fiscal Years Ended September 30, 2010 and 2009
                                                                      2010                   2009

     Imputed Inter-Departmental Financing
          Health Insurance                                       $        3,210          $     3,055
          Life Insurance                                                     14                   13
          Pension                                                         1,488                  986
              Total Imputed Inter-Departmental                   $        4,712          $     4,054




  U.S. Department of Justice
                       These notes are an integral part of these financial statements.




                                                   - 59 -
                  Notes to the Financial Statements




13. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The apportionment categories are determined in accordance with the guidance provided in Part 4 of
OMB Circular A-11, “Preparation, Submission, and Execution of the Budget.” Category A
represents resources apportioned for calendar quarters. Category B represents resources apportioned
for the other time periods; for activities, projects, and objectives or for a combination thereof.


                                                                                                    Total
                                                              Direct             Reimbursable    Obligations
                                                             Obligations          Obligations     Incurred

     For the Fiscal Years Ended September 30, 2010
      Obligations Apportioned Under
        Category A                                       $      3,267,467        $     27,320   $ 3,294,787
        Category B                                                166,682                 311       166,993
      Total                                              $      3,434,149        $     27,631   $ 3,461,780

     For the Fiscal Years Ended September 30, 2009
      Obligations Apportioned Under
        Category A                                       $      5,720,844        $     47,027   $ 5,767,871
        Category B                                                224,399              11,897       236,296
      Total                                              $      5,945,243        $     58,924   $ 6,004,167



Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not
been actually or constructively received. This amount includes any orders which may have been
prepaid or advanced but for which delivery or performance has not yet occurred.


     As of September 30, 2010 and 2009
                                                                      2010                      2009

       UDO Obligations Unpaid                                  $           5,066,722        $   5,550,706
       UDO Obligations Prepaid/Advanced                                    1,504,938            1,387,344
        Total UDO                                              $           6,571,660        $   6,938,050




  U.S. Department of Justice
                          These notes are an integral part of these financial statements.




                                                      - 60 -
                 Notes to the Financial Statements




13. Information Related to the Statement of Budgetary Resources (Continued)

Permanent Indefinite Appropriations:

The Public Safety Officers’ Benefits Act of 1976 (the “PSOB Act”) is generally codified at 42 U.S.C. 

Chapter 46, SUBCHAPTER XII.


The PSOB appropriation supports one mandatory and two discretionary programs that provide 

benefits to public safety officers who are severely injured in the line of duty and to the families and 

survivors of public safety officers killed or mortally injured in the line of duty. 

The PSOB Program offers three types of benefits: 


    1.	 Death Benefits, a one-time financial benefit to survivors of public safety officers whose
        deaths resulted from injuries sustained in the line of duty. Under the Hometown Heroes
        Survivors Benefit Act of 2003, survivors of public safety officers who die of a heart attack or
        stroke within 24 hours of stressful, non-routine public safety activities may also qualify for
        death benefits.

    2.	 Disability Benefits, a one-time financial benefit to public safety officers permanently

        disabled by catastrophic injuries sustained in the line of duty.


    3.	 Education Benefits, which provide financial support for higher education expenses (such as
        tuition and fees, books, supplies, and room and board) to the eligible spouses and children of
        public safety officers killed or permanently disabled in the line of duty.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and
that remains available for obligation under law, unless otherwise restricted. The use of unobligated
balances is restricted based on annual legislation requirements and other enabling authorities. Funds
are appropriated on an annual, multi-year, and no-year basis. Appropriated funds, except no-year,
shall expire on the last day of availability and are no longer available for new obligations.
Unobligated balances in unexpired fund symbols are available in the next fiscal year. Amounts in
expired fund symbols are not available for new obligations, but may be used to adjust previously
established obligations. OJP has one non-appropriated fund, which receives its monies from Crime
Victims revenues. The available balance for obligations in the CVF is established by Congress each
year.




  U.S. Department of Justice
                        These notes are an integral part of these financial statements.




                                                     - 61 -
                       Notes to the Financial Statements




13. Information Related to the Statement of Budgetary Resources (Continued)

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2010 is not presented, because the submission of the Budget
of the United States Government (Budget) for FY 2012, which represents the execution of the FY
2010 Budget, occurs after publication of these financial statements. The Department of Justice
Budget Appendix can be found on OMB website (http://www.whitehouse.gov./omb/budget) and will
be available in early February 2011.

The reconciliation of the Statement of Budgetary Resources versus the Budget of the United States
Government, as of September 30, 2009, is presented below.



  For the Fiscal Year Ended September 30, 2009                                                                  Distributed
    (Dollars in Millions)                                                    Budgetary      Obligations         Offsetting             Net
                                                                             Resources       Incurred            Receipts             Outlays
  Statement of Budgetary Resources (SBR)                                   $       6,228   $        6,004   $                 1     $      3,839

  Funds not Reported in the Budget:
    Expired Funds                                                                   (23)              (1)                      -               -
    Distributed Offsetting Receipts (Budget Clearing Account, Interest)               -                -                      (1)               1
    Rounding                                                                          1                -                       -               -

  Budget of the United States Government                                   $       6,206   $       6,003    $                  -    $      3,840




  U.S. Department of Justice
                                 These notes are an integral part of these financial statements.




                                                                          - 62 -
                   Notes to the Financial Statements




14. 	 Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
      Statement of Financing)

In accordance with OMB Circular A-136, the Statement of Financing is no longer considered a basic
financial statement. In previous years, this reconciliation was accomplished by presenting the
Statement of Financing as a basic financial statement.


For the Fiscal Years Ending September 30, 2010 and 2009

                                                                                    2010                 2009
Resources Used To Finance Activities

   Budgetary Resources Obligated
       Obligations Incurred                                                   $       3,461,780      $    6,004,167
       Less: Spending Authority from Offsetting Collections and
           Recoveries                                                                   113,773             119,033
       Obligations Net of Offsetting Collections and Recoveries                       3,348,007           5,885,134
       Less: Offsetting Receipts                                                            242               1,362
       Net Obligations                                                                3,347,765           5,883,772

    Other Resources
        Transfers In/Out Without Reimbursement                                           24,608              49,215
        Imputed Financing from Costs Absorbed by Others (Note 12)                         4,712               4,054
        Net Other Resources Used to Finance Activities                                   29,320              53,269
 Total Resources Used to Finance Activities                                           3,377,085           5,937,041

 Resources Used to Finance Items not Part of the Net Cost
   of Operations
        Net Change in Budgetary Resources Obligated for Goods, Services,
           and Benefits Ordered but not Yet Provided                                   309,903           (3,170,234)
         Budgetary Offsetting Collections and Receipts That do not
           Affect Net Cost of Operations                                                      932                1,170
        Resources That Finance the Acquisition of Assets                                   (4,141)              (4,545)
        Other Resources or Adjustments to Net Obligated Resources
           That do not Affect Net Cost of Operations                                   (20,852)                 1,358
 Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                      285,842           (3,172,251)

 Total Resources Used to Finance the Net Cost of Operations                   $       3,662,927      $    2,764,790




  U.S. Department of Justice
                           These notes are an integral part of these financial statements.




                                                              - 63 -
                   Notes to the Financial Statements




14. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
    Statement of Financing) (Continued)

 For the Fiscal Years Ending September 30, 2010 and 2009
                                                                                     2010               2009

 Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period
   Components That Will Require or Generate Resources
        in Future Periods (Note 15)                                            $              615   $          1,092

     Depreciation and Amortization                                                          5,400              3,759
     Revaluation of Assets or Liabilities                                                      13                  -
     Other                                                                                  1,143               (501)
 Total Components of Net Cost of Operations That Will not Require or
    Generate Resources in the Current Period                                                7,171              4,350

 Net Cost of Operations                                                        $       3,670,098    $    2,769,140




15. 	 Explanation of Differences Between Liabilities not Covered by Budgetary Resources
      and Components of Net Cost of Operations Requiring or Generating Resources in
      Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is no certainty
that budgetary authority will be realized, such as the enactment of an appropriation, are considered
liabilities not covered by budgetary resources. These liabilities totaling $6,882 on September 30,
2010 and $6,266 on September 30, 2009, are discussed in Note 6, Liabilities Not Covered by
Budgetary Resources. Decreases in these liabilities result from current year budgetary resources that
were used to fund expenses recognized in prior periods. Increases in these liabilities represent
unfunded expenses that were recognized in the current period. These increases along with the
change in the portion of exchange revenue receivables from the public, which are not considered
budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are comprised
of the following:




  U.S. Department of Justice
                            These notes are an integral part of these financial statements.




                                                              - 64 -
                  Notes to the Financial Statements




15. 	 Explanation of Differences Between Liabilities not Covered by Budgetary Resources
      and Components of Net Cost of Operations Requiring or Generating Resources in
      Future Periods (Continued)


For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                      2010            2009

Components of Net Cost of Operations Requiring or Generating Resources in Future Periods
  Increase in Accrued Annual and Compensatory Leave Liabilities                   $        443    $          707
  Other
      Increase in Actuarial FECA Liabilities                                               163               305
      Increase in Accrued FECA Liabilities                                                  (7)               69
      Increase in Other Unfunded Employment Related Liabilities                             16                11
        Total Other                                                                        172               385
        Total Components of Net Cost of Operations That Will Require or
           Generate Resources in Future Periods                                   $        615    $     1,092




16. 	 Allocation Transfers of Appropriations

OJP, as the parent, is required to transfer seventeen million dollars from the CVF to the U.S.
Department of Health and Human Services (HHS) in FY 2010. The same amount was transferred in
FY 2009. This transfer is required by 42 U.S.C '10603a {Sec. 14-4A} for Child abuse prevention
and treatment grants. Amounts made available by section '10601(d)(2) of this title, for the
purposes of this section, shall be obligated and expended by the Secretary of HHS for grants under
section '5106c of this title. The allocation transfer is reported in OJP’s financial statements.




  U.S. Department of Justice
                          These notes are an integral part of these financial statements.




                                                         - 65 -
This page intentionally left blank.





               - 66 -
Required Supplementary Information 

             Unaudited 





             - 67 -
                                                                U.S. Department of Justice

                                                                Office of Justice Programs

                                                              Required Supplementary Information 

                                                          Combining Statement of Budgetary Resources

                                                          For the Fiscal Year Ended September 30, 2010 





Dollars in Thousands                                                                                                                                           2010

                                                                        JA             SLLEA            JJ              CVF              OTHER           TOTAL

Budgetary Resources

  Unobligated Balance, Brought Forward, October 1                  $     23,626    $    120,569     $     9,706    $      50,441     $     19,948    $     224,290

  Recoveries of Prior Year Unpaid Obligations                            15,903          32,947           8,865            3,402            5,108           66,225

  Budget Authority
     Appropriations Received                                            235,000        1,534,768        423,595        2,362,338          308,488        4,864,189
     Spending Authority from Offsetting Collections
         Earned
             Collected                                                   20,010          97,030              841              155          11,346          129,382
             Change in Receivables from Federal Sources                    (968)             80               57                -          (2,658)          (3,489)
         Change in Unfilled Customer Orders
             Advance Received                                           (11,533)         (73,432)         1,098                -              777          (83,090)
             Without Advance from federal Sources                        (2,575)           5,004            557                -            1,759            4,745
  Subtotal Budget Authority                                             239,934        1,563,450        426,148        2,362,493          319,712        4,911,737

  Nonexpenditure Transfers, Net, Anticipated and Actual                  (4,858)        180,695          (5,122)                -          29,738          200,453

  Temporary not Available Pursuant to Public Law                              -                -               -       (1,654,425)               -       (1,654,425)

  Permanently not Available                                              (3,263)         (42,276)        (8,008)                -            (453)         (54,000)

Total Budgetary Resources                                          $    271,342    $ 1,855,385      $   431,589    $     761,911     $    374,053    $ 3,694,280




  U.S. Department of Justice




                                                                       - 68 -
                                                                               U.S. Department of Justice

                                                                               Office of Justice Programs

                                                                 Required Supplemental Information 

                                                        Combining Statement of Budgetary Resources (Continued) 

                                                            For the Fiscal Year Ended September 30, 2010 





Dollars in Thousands                                                                                                                                             2010

Status of Budgetary Resources                                                        JA          SLLEA            JJ             CVF           OTHER        TOTAL

   Obligations incurred
     Direct                                                                     $    232,471   $ 1,731,422    $   416,664    $   711,470   $    342,122   $ 3,434,149
     Reimbursable                                                                      5,947         8,749          2,344              -         10,591        27,631
        Total Obligations Incurred                                                   238,418     1,740,171        419,008        711,470        352,713     3,461,780
   Unobligated Balance - Available
     Apportioned                                                                      29,977       115,214         12,581         43,491          7,709       208,972
   Unobligated Balance not Available                                                   2,947             -              -          6,950         13,631        23,528

Total Status of Budgetary Resources                                             $    271,342   $ 1,855,385    $   431,589    $   761,911   $    374,053   $ 3,694,280



Change in Obligated Balance

   Obligated Balance, Net, Brought Forward, October 1
         Unpaid Obligations                                                     $    308,225   $ 3,923,066    $   617,523    $ 1,006,052   $    105,081   $ 5,959,947
         Less: Uncollected Customer Payment from Federal Sources                      17,317         2,314            803              -          3,976        24,410
             Total Unpaid Obligated Balance, Net, Brought Forward, October 1         290,908     3,920,752        616,720      1,006,052        101,105     5,935,537
   Obligations Incurred, Net                                                         238,418     1,740,171        419,008        711,470        352,713     3,461,780
   Less: Gross Outlays                                                               219,418     2,347,216        313,041        627,337        337,643     3,844,655
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                          15,903        32,947          8,865          3,402          5,108        66,225
   Change in Uncollected Customer Payments from Federal Sources                        3,543        (5,084)          (614)             -            899        (1,256)

   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                            311,322     3,283,074        714,625      1,086,783        115,043     5,510,847
       Less: Uncollected Customer Payments from Federal Sources                       13,774         7,398          1,417              -          3,077        25,666
           Total Unpaid Obligated Balance, Net - End of Period                  $    297,548   $ 3,275,676    $   713,208    $ 1,086,783   $    111,966   $ 5,485,181

Net Outlays
   Gross Outlays                                                                $    219,418   $ 2,347,216    $   313,041    $   627,337   $    337,643   $ 3,844,655
   Less: Offsetting Collections                                                        8,477        23,598          1,940            155         12,122        46,292
   Less: Distributed Offsetting Receipts                                                   -             -              -              -            242           242
Total Net Outlays                                                               $    210,941   $ 2,323,618    $   311,101    $   627,182   $    325,279   $ 3,798,121




   U.S. Department of Justice




                                                                                    - 69 -
                                                                  U.S. Department of Justice

                                                                  Office of Justice Programs

                                                                 Required Supplemental Information

                                                            Combining Statement of Budgetary Resources

                                                            For the Fiscal Year Ended September 30, 2009 




Dollars in Thousands                                                                                                                                       2009

                                                                        JA             SLLEA            JJ           CVF             OTHER           TOTAL

Budgetary Resources

   Unobligated Balance, Brought Forward, October 1                  $    48,146    $     135,531    $    16,476    $ 232,072     $     27,829    $     460,054

   Recoveries of Prior Year Unpaid Obligations                           18,773           66,734          9,247        4,595            7,518          106,867

   Budget Authority
     Appropriations Received                                            230,000        4,093,500        374,000     1,745,678         339,100        6,782,278
     Anticipated                                                              -                -              -             -               -                -
      Spending Authority from Offsetting Collections
          Earned
              Collected                                                  59,962          169,716          2,211            66           8,863          240,818
              Change in Receivables from federal Sources                 (2,714)             440             13             -           2,860              599
          Change in Unfilled Customer Orders
              Advance Received                                          (53,820)        (162,107)        (1,248)            -             430         (216,745)
              Without Advance from Federal Sources                       (9,989)          (3,520)           (13)            -           1,016          (12,506)
   Subtotal Budget Authority                                            223,439        4,098,029        374,963     1,745,744         352,269        6,794,444

   Nonexpenditure Transfers, Net, Anticipated, and Actual               (13,190)         292,273         (3,485)            -           8,219          283,817

   Temporary not Available Pursant to Public Law                              -                -              -    (1,295,083)               -       (1,295,083)

   Permanently not Available                                             (8,296)         (73,354)       (17,840)            -         (22,152)        (121,642)

Total Budgetary Resources                                           $   268,872    $   4,519,213    $   379,361    $ 687,328     $    373,683    $ 6,228,457




   U.S. Department of Justice




                                                                        - 70 -
                                                                               U.S. Department of Justice

                                                                               Office of Justice Programs

                                                                Required Supplemental Information 

                                                       Combining Statement of Budgetary Resources (Continued) 

                                                           For the Fiscal Year Ended September 30, 2009 





Dollars in Thousands                                                                                                                                                2009


                                                                                    JA             SLLEA            JJ           CVF            OTHER         TOTAL

Status of Budgetary Resources

   Obligations incurred
     Direct                                                                     $   233,780    $   4,363,604    $   369,185    $ 636,887    $    341,787    $ 5,945,243
     Reimbursable                                                                    11,466           35,039            470            -          11,949         58,924
        Total Obligations Incurred                                                  245,246        4,398,643        369,655      636,887         353,736      6,004,167
   Unobligated Balance - Available
     Apportioned                                                                     32,675          122,925         16,701       48,581           4,297        225,179
   Unobligated Balance not Available                                                 (9,049)          (2,355)        (6,995)       1,860          15,650           (889)

Total Status of Budgetary Resources                                             $   268,872    $   4,519,213    $   379,361    $ 687,328    $    373,683    $ 6,228,457


Change in Obligated Balance

   Obligated Balance, Net, Brought Forward, October 1
         Unpaid Obligations                                                     $   371,825    $   1,936,991    $   613,475    $ 931,221    $     73,838    $ 3,927,350
         Less: Uncollected Customer Payment from Federal Sources                     30,020            5,394            803            -             100         36,317
             Total Unpaid Obligated Balance, Net, Brought Forward, October 1        341,805        1,931,597        612,672      931,221          73,738      3,891,033
   Obligations Incurred, Net                                                        245,246        4,398,643        369,655      636,887         353,736      6,004,167
   Less: Gross Outlays                                                              290,073        2,345,834        356,360      557,461         314,975      3,864,703
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                         18,773           66,734          9,247        4,595           7,518        106,867
   Change in Uncollected Customer Payments from Federal Sources                      12,703            3,080              -            -          (3,876)        11,907

   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                           308,225        3,923,066        617,523     1,006,052        105,081      5,959,947
       Less: Uncollected Customer Payments from Federal Sources                      17,317            2,314            803             -          3,976         24,410
           Total Unpaid Obligated Balance, Net - End of Period                  $   290,908    $   3,920,752    $   616,720    $1,006,052   $    101,105    $ 5,935,537

Net Outlays
   Gross Outlays                                                                $   290,073    $   2,345,834    $   356,360    $ 557,461    $    314,975    $ 3,864,703
   Less: Offsetting Collections                                                       6,142            7,609            963           66           9,291         24,071
   Less: Distributed Offsetting Receipts                                                  -                -              -            -           1,362          1,362
Total Net Outlays                                                               $   283,931    $   2,338,225    $   355,397    $ 557,395    $    304,322    $ 3,839,270




   U.S. Department of Justice




                                                                                    - 71 -
This page intentionally left blank.





               - 72 -
Required Supplementary Stewardship Information


                   Unaudited





                  - 73 -
This page intentionally left blank.





               - 74 -
                                                    U.S. Department of Justice 

                                                    Office of Justice Programs

                                       Required Supplementary Stewardship Information 

                                                  Non Federal Physical Property

                                   For the Fiscal Years Ended 2010, 2009, 2008, 2007, and 2006





The Violent Offender Incarceration and Truth-In-Sentencing (VOI/TIS) and the Correctional Grants
for Tribal Lands programs, which are administered by OJP’s Bureau of Justice Assistance, provide
grants to any state of the 50 United States; the District of Columbia; Tribes; Puerto Rico; Virgin
Islands; American Samoa; Guam; and the Northern Mariana Islands, for the purposes of building or
expanding correctional facilities and jails to increase secure confinement space for violent offenders.
The facilities built or expanded with these funds constitute non-federal physical property.

VOI/TIS and Correctional Grants for Tribal Lands funds are available for the following purposes:
•	 Build or expand correctional facilities to increase the bed capacity for the confinement of persons
   convicted of a Part 1 violent crime or adjudicated delinquent for an act that, if committed by an
   adult, would be a Part 1 violent crime. NOTE: Part 1 violent crime includes murder and non-
   negligent manslaughter, forcible rape, robbery, and aggravated assault as reported to the Federal
   Bureau of Investigation for purposes of the Uniform Crime Reports.
•	 Build or expand temporary or permanent correctional facilities, including facilities on military
   bases, prison barges, and boot camps, for the confinement of convicted nonviolent offenders and
   criminal aliens, for the purpose of freeing suitable existing prison space for the confinement of
   persons convicted of a Part 1 violent crime.
•	 Build or expand jails.
•	 Additionally, since FY 1999, up to 10.0 percent of a state's VOI/TIS award may be applied to the
   costs of offender drug testing or intervention programs during periods of incarceration and post-
   incarceration criminal justice supervision and/or pay the costs of providing the required reports
   on prison drug use.

VOI/TIS and Correctional Grants for Tribal Lands funds expended from FY 2006 through FY
2010, are as follows:

Dollars in Thousands                              2010           2009          2008          2007        2006

Receipients of Non-federal Physical Property:
   Cooperative Agreement Program
     Administered by US Marshals Service $              -    $         -   $     1,140   $   2,839   $   2,521
   Grants to Indian Tribes                         24,768         14,320         5,094      11,334       4,007
   Grants to States                                11,389         41,561        59,011     188,171     222,650
     Total Non-Federal Physical Property      $    36,157    $    55,881   $    65,245   $ 202,344   $ 229,178




  U.S. Department of Justice




                                                            - 75 -
